<html>
<title> - ALASKA AVIATION INFRASTRUCTURE AND FUNDING CHALLENGES--MEETING FUTURE SAFETY, CAPITAL AND TECHNOLOGICAL NEEDS</title>
<body><pre>[Senate Hearing 109-530]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-530


                  ALASKA AVIATION INFRASTRUCTURE AND 
                  FUNDING CHALLENGES--MEETING FUTURE 
                SAFETY, CAPITAL AND TECHNOLOGICAL NEEDS

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 5, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                      U.S. GOVERNMENT PRINTING OFFICE
29-336 PDF                WASHINGTON : 2006
__________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 5, 2006.....................................     1
Statement of Senator Stevens.....................................     1

                               Witnesses

Blakey, Hon. Marion C., Administrator, Federal Aviation 
  Administration.................................................     2
    Prepared statement...........................................     5
George, Tom, Alaska Regional Representative, Aircraft Owners and 
  Pilots Association.............................................    28
    Prepared statement...........................................    31
Hajdukovich, Bob, Chief Operating Officer, Frontier Flying 
  Service........................................................    16
    Prepared statement...........................................    18
Plumb, Jr., Morton V., Director, Ted Stevens International 
  Airport........................................................    20
    Prepared statement...........................................    25
Torgerson, John, Deputy Commissioner, Alaska Department of 
  Transportation and Public Facilities...........................    11
    Prepared statement...........................................    14

 
 ALASKA AVIATION INFRASTRUCTURE AND FUNDING CHALLENGES--MEETING FUTURE 
                SAFETY, CAPITAL AND TECHNOLOGICAL NEEDS

                              ----------                              


                        WEDNESDAY, JULY 5, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                     Anchorage, AK.
    The Committee met, pursuant to notice, at 9:34 a.m. in 
Assembly Chambers, Loussac Library, Hon. Ted Stevens, Chairman 
of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. This is another hearing of the Commerce 
Committee in the field. Today we're going to hear from the 
Administrator, Marion Blakey, and she's joined by Pat Poe who 
is our Regional Administrator. Pat, you're leaving us soon, I 
understand. You've been here, what 8 years now?
    Mr. Poe. Just about, it's gone very, very quickly.
    The Chairman. Well, we thank you very much for the time 
you've spent working on these aviation safety matters along 
with all of us and it's been a great change here under your 
administration of the Regional Office. We have been focused on 
our committee on communications policy but we're going to get 
back to the aviation areas later this year I hope. We've got a 
lot to discuss. We all know that Alaska depends on aviation 
more than any other state and we have had a terrible history in 
aviation safety. A few years ago when we started the Capstone 
program, and Ms. Blakey will testify about it today, we had 
serious concerns about the future of safety with so many pilots 
having accidents and so many deaths in our state. Innovation 
has come about which is driven by necessity and I'm really 
pleased that the FAA and the state and the various interests in 
Alaska joined together sometime early in the 1990s. Capstone 
remains a model for the government and for industry. In the 
Yukon-Kuskokwim Delta alone, since Capstone has been 
introduced, the accident rate has been reduced by about 60 
percent. I don't want to steal your statement, Ms. Blakey, but 
I'm very proud of what has been done here. This afternoon we'll 
meet with the people involved with the Medallion Program. That, 
too, has been a voluntary program of our operators. We have a 
recent history of success and we want to hear from Ms. Blakey 
and others on the second panel on what we can do to improve on 
even that. So, Pat, we do wish you the best as you go on to 
whatever you're going to do as you leave this office. Ms. 
Blakey, the Administrator has been here several times now and 
has participated in not only the Capstone review but also the 
Medallion Program and we're grateful to you for the time you've 
spent on Alaska safety matters. I'm pleased to have your 
statements this morning.

  STATEMENT OF HON. MARION C. BLAKEY, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Ms. Blakey. Thank you, Mr. Chairman. I have to tell you, it 
is wonderful to be back in Alaska. This is one of those things 
that's been a great privilege of the job I have. And I must 
tell you that when I was here----
    The Chairman. Can you pull that mike up toward you please?
    Ms. Blakey. Yes, I can. Is this the one that's live here? 
This----
    The Chairman. Wrong mike.
    Ms. Blakey. Does that work better?
    The Chairman. Fine, thank you.
    Ms. Blakey. Great. I was here a year ago and I had the 
opportunity to speak with people about the aviation needs of 
this great state and to work with you, Mr. Chairman, on some of 
the most important initiatives that we have in the state, ones 
that are bellwethers for so much of the rest of the country. I 
thought to myself, how important it is that, relatively new 
safety initiatives are making a tremendous difference in the 
lives of people in the State of Alaska who depend so much on 
flying. It's clear that, thanks to the continued interest and 
support from you and with the help of the Alaskan aviation 
community, which is very vocal and so active, air safety in 
this state continues to improve. I should also tell you that, 
as you know, the State of Alaska and your leadership here has 
had tremendous support from Secretary Norman Mineta, who last 
year was here with us working together on a number of these 
initiatives. As you know, this is his last week in office as 
Secretary of Transportation. And so he is in Washington 
attending to a number of things, wrapping up his tremendous 
tenure there, one that I think is going to be seen as historic. 
But he would have loved to have been here as well.
    Finally, I would be remiss if I did not also say in 
referring to those who are retiring that we have done 
everything we knew to talk Pat Poe out of this idea of 
retirement. I think it's intrinsically a bad thing and I told 
him it may not be good for his health. But I cannot seem to 
persuade him off this idea. So, we are very grateful. And I'm 
looking forward to this trip, to taking advantage of as much of 
Pat's knowledge base as I can to absorb while I'm here. Because 
we really are going to miss his help in the state.
    Although I emphasized it last year, it bears repeating that 
aviation safety is the critical mission of the FAA. Likewise, 
enhancing safety in Alaska remains an essential part of our 
flight plan which as you know is our business plan that governs 
the priorities of how we spend our resources in the FAA. Most 
Americans don't have to worry about getting in a plane to get 
medical attention or simply basic supplies; Alaskans do. But 
the goods news is that Alaska doesn't take aviation safety for 
granted and we can all be proud of what we've achieved in terms 
of accident reduction. You referred to this in your statement, 
Mr. Chairman, and you are absolutely right. We've seen a 40 to 
50 percent accident reduction in some parts of the state. It's 
really extraordinary. And we can be prouder still that we've 
not been content to rest on those accomplishments. So, if 
you'll permit me I'd like to simply update you on a few of the 
initiatives that you know well but that I know some in this 
hearing room today would like to hear more of the specifics.
    Alaska Capstone is a technology driven safety program. The 
key enabling technology on which Capstone is based is Automatic 
Dependent Surveillance-Broadcast, more commonly called ADS-B. 
Capstone equipped aircraft using ADS-B have held a consistently 
lower accident rate than non-equipped aircraft. Consequently, a 
major goal of Capstone is to pursue affordable avionics and 
encourage equipage so that aircraft owners will have a range of 
choices appropriate to their operational needs.
    Without a doubt, ADS-B is the future of air traffic 
control, of this we're convinced. In the near term, pilots 
operating aircraft equipped with ADS-B have much better 
situational awareness than other pilots. They know where their 
own aircraft are with greater accuracy and the displays show 
them all the aircraft in the air around them. In addition to 
increasing capacity, ADS-B improves aviation safety both in the 
air and on the ground. On the ground it is of tremendous 
importance because of the liability of runway incursions. 
Capstone, which began installing equipment in aircraft in July 
2000 in the Y-K Delta Region, has served as a critical test bed 
for this important technology. In other words, what you're 
doing here is shaping the future of the Nation's air 
transportation system.
    In May, I established a national ADS-B program office in 
the FAA to facilitate the integration of ADS-B into the 
National Airspace System. The national program is building on 
the successes of Capstone, Senator, and I want to give credit 
where credit is due. You and the people of Alaska have been the 
drivers of this technology. In the years I've been at the 
agency over and over again, Alaska is making it happen for the 
rest of the country.
    Another joint industry/FAA effort that continues to improve 
aviation safety in Alaska is the Medallion Shield Program, an 
effort implemented by the Medallion Foundation. The program 
sets voluntary safety standards for air carriers in Alaska that 
are above and beyond FAA requirements. The Medallion Shield 
Program has expanded from 10 carriers in August of 2002 to 75 
today, which is tremendous. Of those, 27 have at least one 
star, meaning they've established a safety program that meets 
certain requirements. And three have received their shield, 
meaning they've earned all five stars by meeting specific 
training, operational, auditing and risk management goals. The 
State of Alaska now requires bidders for any type of state 
contract involving air carriage to contract with carriers that 
have at least one star in the program, which has yielded great 
results. Since September 2004, there have been no fatalities 
involving Part 135 air operators in the State of Alaska. It's a 
record we certainly hope to continue.
    Medallion Flyer Program is the general aviation counterpart 
of the Medallion Shield. And I will point out that today I am 
very proudly wearing my Medallion flyer wings. I was very proud 
at the beginning of this program to be presented with these 
because it's impressive; it's a voluntary program that targets 
all Part 91 operators. The program focuses on the adoption and 
implementation of personal safety and risk management programs 
by Alaska's general aviation pilots. More than 1,000 pilots 
have voluntarily participated in the program and more than 500 
have completed their additional Medallion training. Again, 
let's look at the bottom line. There have been no fatalities 
involving any Medallion pilot who completed the initial 
training. It's a real success. And the FAA is proud to continue 
working to keep this going.
    The last thing I'd like to talk about is something I know 
is of great concern to you, Senator, and that is the 
President's 2007 budget, and our request particularly for the 
AIP Program, Airport Improvement Program. You spoke with great 
eloquence and passion the last time I appeared before your 
Committee, so I'd like to take the time to address the concerns 
you outlined then and take them on head-on because this is a 
difficult budget time for all of us.
    Of course, given how uniquely situated you are in terms of 
understanding the current budget climate in Washington, I know 
it's somewhat superfluous to explain to you that, like other 
government agencies, the FAA has been having to make some very 
tough choices and take a look at our programs with an eye to 
what really does require priority funding at this moment in 
time. At the same time, I want you to know that after the last 
hearing, I've gone back and carefully reviewed our budget 
request. And I want to emphasize that Alaska's airport needs 
will continue to be met. As I said at the outset of my 
statement, I fully appreciate the importance of aviation to the 
State of Alaska. It is unique. That's why, although Alaska 
would see a reduction in AIP funding under our budget request, 
it would rank second in the Nation in the amount of entitlement 
funds. That is up from last year. Last year it was third in the 
nation, in 2006. Surely this says something about the FAA's 
commitment to this important state. Rural access programs in 
Alaska are specifically included in the FAA's overall flight 
plan. FAA's commitment to funding such projects is evidenced by 
our recent investments, including $23 million this fiscal year 
to improve remote access airports. Our current flight plan 
continues this initiative through Fiscal Year 2011. We will 
continue to give high priority to funding rural access projects 
in the state.
    Finally, I'd like to note that while our commitment to 
Alaska's rural communities is very firm, at the same time we're 
supporting major airports like Ted Stevens International 
Airport here in Anchorage. Ted Stevens International Airport 
has received $14.2 million in discretionary funds to support 
their Letter of Intent projects and noise program. LOI's also 
have the highest priority for our discretionary funds and would 
be fully funded in Fiscal Year 2007 under the President's 
budget. Also noise-related projects are funded through a 
dedicated pool of discretionary funds. We anticipate that 
Alaska's noise projects will also be funded under our Fiscal 
Year 2007 proposal.
    Obviously, there are numerous programs and projects going 
on in Alaska that I haven't touched on. Alaskans have a lot of 
energy when it comes to aviation which, as someone who loves 
aviation, is why it's so terrific being up here. And I learn a 
lot every single time I come about new priorities and programs 
that are really advancing the bounds of safety. I just want to 
end by saying that I appreciate the people of Alaska, the 
uniqueness of Alaska and the special working relationship that 
exists between the FAA, your leadership and the aviation 
community. We can take pride that our work here will ultimately 
benefit the entire country.
    As I close, Senator, please take a look at the kiosk that 
stands before us right here. It's another terrific step for 
technology and of course it's another first step that's being 
taken in the State of Alaska. The weather camera program has 
been very successful. There are 63 weather cameras located 
throughout the state. These kiosks will allow pilots at remote 
airports throughout the state to see weather along the route 
once they've reached the airport. Because after all, things can 
change a lot from when they checked on their home computer 
usually early in the morning. But they can check at the airport 
right before that critical go, no-go decision is being made.
    Sir, we're proposing 35 kiosk locations. Lake Hood will be 
the first. And given Alaska's track record for pushing the 
envelope on aviation safety, taking us where we haven't gone 
before, I'm confident that this one is going to be one of many 
that will be effective throughout the state. So thank you very 
much for allowing me to testify here today.
    [The prepared statement of Ms. Blakey follows:]

  Prepared Statement of Hon. Marion C. Blakey, Administrator, Federal 
                        Aviation Administration
    Good morning Senator Stevens and Members of the Committee. It is 
wonderful to be back in the great State of Alaska. I was here a year 
ago and had a wonderful time. At that time, I had the opportunity to 
speak with many interesting people about the aviation needs of Alaska 
and see for myself how the important safety initiatives we are working 
on with the aviation community here are making a real difference in the 
lives of the people who depend so much on flying for the basic needs of 
everyday life. So I am happy to be back and see what has happened in 
the past year and to reacquaint myself with some of the folks I talked 
with last year. I very much appreciate that, thanks to the continued 
interest and support of Senator Stevens and the help of the Alaska 
aviation community, aviation safety in the state continues to improve. 
The experience and expertise gained through the initiatives we are 
working on here will eventually improve safety throughout the country.
    Although I emphasized it last year, it bears repeating that 
aviation safety is the critical mission of the Federal Aviation 
Administration (FAA) and enhancing safety in Alaska remains an 
essential part of our Flight Plan. Most Americans don't have to worry 
about getting in a plane to get medical attention or basic supplies; 
Alaskans do. While flying is taken for granted in Alaska, safety isn't, 
as has been evidenced by the admirable work that has gone into reducing 
the number of accidents in certain parts of the state by 40 to 50 
percent in the past decade. We can all be proud of what we have done to 
achieve this accident reduction and we can be prouder still that we are 
not content to rest on our accomplishments and are working to make 
things ever safer. So I would like to update you on a couple of the 
initiatives I talked to you about last year to let you know where we 
are and where we are going.
    The Alaska Capstone Program, a technology-driven safety program, 
continues to achieve near term safety and efficiency gains in aviation 
by accelerating implementation and use of modern technology, in both 
avionics and ground systems. The key enabling technology on which 
Capstone is based is Automatic Dependent Surveillance-Broadcast (ADS-
B). ADS-B gives an aircraft with the requisite data uplink/downlink and 
cockpit display capabilities the same information about other aircraft 
in the vicinity as air traffic control now receives. Capstone equipped 
aircraft using ADS-B have had a consistently lower accident rate than 
non-equipped aircraft. Consequently, a major goal of Capstone is to 
continue to pursue affordable avionics so that aircraft owners will 
have a range of choices appropriate to their operational needs. This 
includes both creating options for equipage and a strategy to ensure 
that all aircraft in Alaska are equipped. I won't go into all of the 
details I did in my statement last year on this important program, but 
I would like to focus on how Capstone has helped us get to the point 
where we can move forward with ADS-B.
    ADS-B is, quite simply, the future of air traffic control. Instead 
of using radar data to keep aircraft at safe distances from one 
another, in the future, signals from Global Positioning Satellites will 
provide air traffic controllers and pilots with much more accurate 
information that will help keep aircraft safely separated in the sky 
and on runways. Pilots operating equipped aircraft have much better 
situational awareness because they know where their own aircraft are 
with greater accuracy, and their displays will show them all the 
aircraft in the air around them. ADS-B will improve aviation safety in 
the air and on the ground, as well as increase capacity. Capstone, 
which began installing equipment in aircraft in July 2000 in the Yukon-
Kuskokwim (Y-K) Delta Region, has served as a critical test bed for 
this important technology.
    In May, I established a national ADS-B program office in FAA to 
facilitate and oversee the integration of ADS-B into the National 
Airspace System (NAS). The national program will build on the successes 
of Capstone. The information and experience we have gained here in 
Alaska will help FAA accelerate the integration efforts throughout 
Alaska, which is critical to the success of the Next Generation of Air 
Traffic Services (NGATS). So the importance of the role played by the 
people here in Alaska cannot be overstated. I want to thank the entire 
Alaskan aviation community, in partnership with the Capstone Program 
Office, for its leadership in the development of far-reaching and 
innovative changes that will continue to have a positive impact on the 
NAS.
    I do want to acknowledge one problem we faced regarding ADS-B in 
Alaska. Earlier this year, it was determined that an unapproved 
separation standard was being applied by the Anchorage Center (ZAN) 
between ADS-B surveilled aircraft and radar surveilled aircraft. As a 
result of this determination, FAA executives, including the Associate 
Administrator for Aviation Safety and the Alaska Regional 
Administrator, decided to suspend the display of ADS-B targets on ZAN 
controller displays. I believe this action was necessary and 
appropriate pending an assessment of the operational use of ADS-B in 
this area.
    Unfortunately, there were unintended consequences with the operator 
fleet monitoring (OFM) and the display of traffic information in the 
control tower at Bethel. Upon learning this, we took corrective action 
to reinstate the capability of OFM and display of traffic information 
in the Bethel tower, both of which are now restored. The ADS-B 
capabilities of Flight Information Services--Broadcast (FIS-B), Air-to-
Air situational awareness, and Search and Rescue (SAR) have been and 
will continue to be provided without disruption. Anchorage Center 
continues to provide instrument flight rules (IFR) separation services 
in the Bethel area through procedural methods.
    FAA is committed to resolving the remaining issues associated with 
safely separating ADS-B targets from radar targets (known as a mixed 
environment). The use of ADS-B information as a fully integrated air 
traffic control surveillance source requires an approved operational 
evaluation with appropriate controls to ensure compliance with safety 
standards. FAA has in place an aggressive schedule to achieve such 
compliance. On July 15, the FAA will begin an operational validation to 
evaluate minimum separation standards in a mixed environment in the 
Bethel, Aniak, and St. Mary's areas. On or about August 15, the FAA 
plans to expand the operational validation of the mixed environment to 
the Dillingham and Kang Salmon areas.
    Another joint industry/FAA effort that continues to improve 
aviation safety in Alaska is the Medallion Shield Program, a program 
implemented by the Medallion Foundation. The program sets voluntary 
safety standards for air carriers in Alaska that are above and beyond 
FAA requirements. The program focuses on establishing and sustaining an 
elevated level of safety performance through: the development of a 
safety culture that holds safety as a core value; continuous 
professional development of individual skills and competence; proactive 
sharing of operational control responsibilities; hazard identification 
and risk management; and management practices that support the 
organization's safety objectives.
    For those of you who are unfamiliar with the program, the Five 
Stars in the Medallion Five Star Shield program include numerous 
methods for improving safety. To earn the First Star, each air carrier 
must establish a safety program which, at a minimum, should include 
safety meetings and audits, the use of root-cause analysis, hazard 
identification, incident investigations, and a viable emergency 
response plan. The Five Star program also requires a classroom training 
program for pilots, mechanics and ground service personnel, as well as 
required training on a PC-based computer simulator. Two annual check 
rides are required to receive this Second Star, and annual pilot 
proficiency check rides are required to keep the Star. The Third Star 
involves operational risk management. A dynamic system that provides 
analytical tools as well as a system of checks and balances to 
proactively identify hazards and manage risks is required. The carrier 
must have an operational risk management system that quantifies the 
risks for each flight, including weather, airport, and crew readiness. 
The total risk score determines if the flight is conducted normally, if 
more management evaluation is required for release of the flight, or if 
the flight is cancelled. The Fourth Star concerns maintenance and 
ground service operations, requiring specific training and manning 
levels. The Fifth Star is an internal audit program, which requires 
incorporation of a proactive internal audit system that focuses on the 
use of systems safety principles, as well as regulatory compliance. 
This is a comprehensive audit program requirement intended to allow the 
operator to continuously monitor their operating systems and provide 
for continuous improvement. In order to maintain Shield status, the 
operator must successfully pass an audit each year. A direct benefit of 
the Shield program for operators is that the insurance industry has 
agreed to provide favorable rates for Shield carriers.
    The Medallion Shield Program has expanded from 10 carriers in 
August 2002 to 75 today. Of those, three have received their Shield and 
27 have at least one Star. The State of Alaska now requires bidders for 
any type of state contract involving air carriage to have at least one 
star in the program. This work has yielded results. Since September 
2004, there have been no fatalities involving part 135 air operators in 
Alaska, a streak that we hope will long continue.
    The Medallion Flyer Program is the general aviation counterpart of 
the Shield Program. It is a voluntary program that targets all Part 91 
operators, including flight schools, hunting and fishing guides, lodge 
operators, Civil Air Patrol, and law enforcement agencies. The program 
focuses on the adoption and implementation of personal safety and risk 
management programs by Alaska's general aviation pilots. In addition to 
an ongoing structured educational program, the Flyer Program uses 
sophisticated flight training devices and flight simulators have been 
purchased and are being used to improve the pilot skills of its 
participants. More than 1,000 pilots are voluntarily participating in 
the program, and more than 500 have completed the initial Medallion 
training. Again, let's look at the bottom line. There have been no 
fatalities involving any Medallion pilot who has completed initial 
training. This says to me, let's just keep working together.
    The last thing I would like to talk about today is something that I 
know is of great concern to Senator Stevens and that is the President's 
2007 budget request for the Airport Improvement Program (AIP). Senator 
Stevens spoke with great eloquence and passion the last time I appeared 
before his Committee on this matter, so I would like to take the time 
to address his concerns head on.
    I know Senator Stevens is uniquely situated to understand the 
current budget climate in Washington, D.C. I also know the 
Administration and Congress share the sense of obligation that we must 
make the absolute best use of the taxpayers' dollars. Like other 
government agencies, FAA had to take a hard look at our programs and 
make some difficult choices. While I recognize that some people would 
like to see the AIP funding level higher, the AIP budget request for 
next fiscal year will meet the current needs of the nation's airports. 
I also want to emphasize that Alaska's airport needs will continue to 
be met. As I said at the outset of my statement, I understand the 
importance of aviation to the State of Alaska. That is why, although 
Alaska would see a reduction in AIP funding under our budget request, 
it would rank second in the Nation in the amount of entitlement funds 
it would receive, up from third in FY06. Surely that says something 
about FAA's commitment to this important state.
    Senator Stevens expressed his concern about how the AIP proposal 
would affect access to rural areas in the state. Rural access projects 
in Alaska are specifically included in the FAA's overall Flight Plan. 
In addition, FAA's commitment to funding rural access projects is 
evidenced by our recent investments. Our current Flight Plan continues 
this initiative through FY 2011. This serves as our promise to the 
people of Alaska that we will continue to give high priority to funding 
rural access projects in the state.
    Another concern expressed by Senator Stevens was the effect of the 
President's AIP budget request would have on the Rural Alaska Lighting 
Program, where aeronautical lighting is provided at remote unlit 
communities throughout the state. There were 63 locations included in 
that program. All 63 locations are now fully equipped with either an 
interim or permanent lighting solution that provides for unconditional 
24-hour visual flight rule (VFR) aviation access by emergency medical 
aircraft. Thirty-one locations have received permanent lighting 
solutions. The remainder are equipped with a highly effective interim 
solution. Of those, 14 are expected to receive a permanent solution 
prior to FY 2010. The remaining 18 have extreme challenges that are 
likely to delay the installation of a permanent solution until after 
2010. However, the program remains a priority for FAA and we anticipate 
continuing to fund these projects as scheduled.
    Finally, I would like to note that, while our commitment to 
Alaska's rural communities is firm, at the same time we haven't 
forgotten Anchorage. Ted Stevens International Airport has received 
$14.2 million in discretionary funds to support their Letter of Intent 
(LOI) projects and noise program. LOIs have the highest priority for 
discretionary funds and are planned to be fully funded in FY07 under 
the President's budget. Also, noise-related projects are funded from a 
dedicated pool of discretionary funds. Therefore, we anticipate that 
Alaska's noise projects will also be funded under the FY07 proposal.
    Obviously, there are lots of important programs and projects going 
on in Alaska that I haven't touched upon. Alaskans have a lot of energy 
when it comes to aviation which is why it is always so much fun to 
visit. I just want to end by saying that I appreciate the people of 
Alaska, the uniqueness of Alaska and the special working bond that 
exists here between the FAA and the aviation community. We can take 
pride that our work here will ultimately benefit the entire country.
    This concludes my prepared statement. I will be happy to answer any 
questions you might have.

    The Chairman. Thank you, Ms. Blakey. And I note that with 
regard to the FAA's weather cam programs, you have a brochure 
for the people in attendance. You're going to hand that out 
after the hearing, right?
    Ms. Blakey. Yes.
    The Chairman. And I'm delighted to have had a chance to 
sneak a look at this new program. The effect of that will be to 
have not only the Weather Channel but the FAA advisory and to 
have a weather cam available at the destination the pilot has 
selected. Right?
    Ms. Blakey. Exactly. And you can follow flight plans from 
this as well and consult with the flight service specialist. So 
it gives a multitude of benefits. But the ability for pilots to 
see for themselves what's exactly going on in real time is 
invaluable.
    The Chairman. And this is going to be the first one, at 
Lake Hood?
    Ms. Blakey. First one at Lake Hood and then I think we're 
going to evaluate how that works. Pat has been working very 
hard on this.
    Mr. Poe. Actually, we will have two that we're going to 
evaluate. One will be at Lake Hood and the second will be at 
Yakutat. And we hope, by the end of this calendar year, to 
confirm the viability and the workability of this. And, of 
course, we'll interact with the pilots to see how we can make 
it even better. Ultimately this is going to be an extended 
component of our flight services within Alaska; it's just not a 
weather camera device. And personally I----
    The Chairman. Do you think that'll evolve so the pilot can 
pick up weather en route, so you can get it into the cockpit?
    Mr. Poe. You know, we've had that as a vision almost from 
the beginning, combining weather camera technology with the 
Capstone in-cockpit display. And many will say it's in reach. I 
think it's--you have to reach far unfortunately, because of the 
bandwidth and other things to move that video image. But that's 
where we're going. I think it'd be great if a pilot could look 
at alternatives if he or she found that their route of flight 
was no longer safe and could do that in real time and visually. 
So this, by the way, we received, I think, 2 weeks ago and so 
it's really fresh in terms of an opportunity in----
    The Chairman. Our Committee is working, and we'll soon take 
to the floor, we hope, the new communications bill which will 
have an impact on the allocation of broadband in the future. 
Maybe we can work with your people in Washington, Ms. Blakey, 
to see whether we could reserve a little bit more of that for 
the FAA's purpose if this has got a national implication. We'll 
be happy to look at that with you. I want to call attention to 
the fact that Channon Hanna is here. Channon is part of Senator 
Inouye's staff. He has sent his staff along as Co-Chairman to 
monitor these hearings. This is sort of a lowball, but avian 
flu is on the minds of everybody I've been talking to here in 
Alaska. And have you had any particular role in avian flu 
planning, considering the fact that we have become a major 
destination for many people on the Asian continent? They come 
through here or to here. Has the FAA been involved at all in 
planning for the avian flu here?
    Ms. Blakey. We've really had to be because I think that 
everyone understands that it could have an enormous effect. And 
there's a lack of predictability. So it does mean we're looking 
at a number of scenarios and eventualities. We do have a plan 
for the FAA on how to deal with an avian flu outbreak that 
involves not only how we compensate for staff losses, how we 
continue to provide air traffic control when you may have as 
much as 40 percent diminution in your work force. Forty percent 
because people may be ill or having to care for those who are 
ill, or frankly unwilling to come into heavy congested areas. 
So there is an effort, therefore, that we have made to make 
sure we know how we would transfer responsibilities, from one 
facility to another, what we would do to continue to cover the 
safety responsibilities and all of that. When it comes to 
passengers and how they would be handled coming into the 
country, we're working very closely with the Department of 
Homeland Security, of course through the Department of 
Transportation, because this affects all modes of 
transportation but particularly aviation. We're also working of 
course with the Centers for Disease Control about what the best 
methods are for handling quarantine and handling the specifics 
of ill passengers coming in. It may be of interest, also, to 
know that in addition to having a very strong written plan, 
that we have flexed, we've been doing scenarios, the kind of 
``what if'' tabletop exercises that I think also show you where 
the gaps are. And then, finally, I just was at a meeting which 
we called the National Aviation Trilateral Meeting. It's 
between Canada, Mexico and the United States. And the three 
heads of aviation for our countries, myself and my 
counterparts, agreed that we would form a work force to deal 
with the border issues and what will be the effects if we begin 
to find avian flu crossing over which of course would affect 
Alaska very much with the Canadian buffer between us. We are 
committed to this summer putting in place a strong plan that we 
would all then follow as the protocol on this. So there is a 
good bit working. I won't tell you that it doesn't still pose 
challenges, it does. But we're certainly working it very, very 
actively and I think it's fair to say that a good plan is in 
place.
    The Chairman. Thank you very much for that. On Capstone, my 
staff tells me that ADS-B was temporarily suspended here in 
Alaska waiting for some certification. What's the status of 
that now?
    Ms. Blakey. Back in March we temporarily took Capstone off 
the glass because we were--we became aware that we were using 
Capstone in a way that was what we call a mixed environment, 
ADS-B targets and radar targets. And we really had not gone 
through the operational safety analysis of what kind of safe 
separation standards should be involved there. We were aware 
though, that Capstone is an important program for a variety of 
flights providing a situational awareness for pilots that are 
equipped and in the area. And so we quickly restored the flight 
information services and the traffic information services that 
we had with the program. Also, we have begun to work on the 
certification requirements so that you can use the Capstone 
program in a mixed environment coming out of the Anchorage 
center. I'm pleased to say that we're making great progress. In 
addition to turning on the services very quickly, we began June 
15th on the air traffic control front to evaluate where we were 
for ADS-B and ADS-B equipped aircraft. And then we have moved--
our plan is in July, July 15, so coming up very soon, to start 
the operational evaluation of ADS-B to radar targets and to see 
how those safe separation standards should be certified and 
developed. We'll be doing that initially down in the Bethel 
area. We will be at St. Mary's, Aniak, and then by August 15, 
we expect to expand it further to Dillingham and King Salmon. 
So we're really trying to take this in stages so that the 
safety analysis is rigorous and will hold up. But we feel that 
this should be, at this point, the way to go to a situation 
where we're flexing the full capabilities of ADS-B for 
separation.
    The Chairman. I'm impressed with the Alaska-based 
information. We're delighted that you'd be with us and give us 
those answers. Let me ask Pat a question. Pat, do you know of 
any pilots in the state that are still using LORAN?
    Mr. Poe. No, I don't personally. Perhaps we have Bob 
Hajdukovich and others here that will testify later, they might 
be able to help you on that, sir.
    The Chairman. I'm interested in that. We have the sudden 
termination plan for the modernization of LORAN and we've 
temporarily stopped that because we don't know that everyone is 
transitioned to the new systems yet. I'd appreciate it if you'd 
give us any knowledge that your people pick up as to whether 
that LORAN program should be totally canceled. We do appreciate 
very much your testimony. Channon, with Senator Inouye, do you 
have anything else? And we thank you very much. We appreciate 
your being willing to come up each year, Ms. Blakey, and to be 
able to keep up with the developments of your programs here in 
Alaska, they're very important. I'm told that the objectives 
for phase three of Capstone will indicate a further reduction 
in general aviation accidents of 15 percent. A goal is to have 
a further reduction in general aviation fatal accidents by 33 
percent and a reduction in commercial fatal accidents by 41 
percent. And that goes on top of the progress that's already 
been made. As I've indicated, it's our information that we 
are--although we're about 10 percent of the Nation's air 
program that we've made this substantial reduction already 
through these programs. So those goals are very welcome for us. 
It means a continued improvement in terms of safety for Alaska, 
which is very vital. We appreciate your help.
    Ms. Blakey. Mr. Chairman, I would simply say that it is a 
great privilege to be here because, as I testified, I learn a 
great deal. And I have really become a champion of the Capstone 
Program not just in our country, in moving to a national 
program for the entire United States, but in a number of other 
countries around the world. It was not very long ago I was 
talking about Capstone in Alaska. I was talking about it in 
Japan, and in Latin America with our counterparts. I very much 
believe that ADS-B is the future that we all should move to and 
you all are pioneering it so I thank you for that.
    The Chairman. Maybe we could create a new position in the 
Department of State for you, Pat, and make you the ambassador 
for aviation safety worldwide.
    Mr. Poe. I'm open for consideration.
    The Chairman. You're ready, you're available, OK. Thank you 
very much, we appreciate your coming. Our second panel this 
morning is John Torgerson, the Deputy Commissioner of the 
Alaska Department of Transportation; Tom George, the Alaska 
Regional Representative for the Alaska Owners and Pilots 
Association; Mort Plumb, the Director of Anchorage 
International Airport; and Bob Hajdukovich, the Chief Operating 
Officer for Frontier Flying Service. Gentlemen, we appreciate 
your coming, and your willingness to participate in this 
hearing.
    Why don't I ask you to present any comments you wish to 
make in the order that I read the names of the second panel, or 
the way you're lined up is all right with me. John, you'd be 
first, John Torgerson, Deputy Commissioner of the Department of 
Transportation for Alaska.

   STATEMENT OF JOHN TORGERSON, DEPUTY COMMISSIONER, ALASKA 
       DEPARTMENT OF TRANSPORTATION AND PUBLIC FACILITIES

    Mr. Torgerson. Thank you, Senator, and welcome home. The 
State of Alaska operates 258 airports ranging in size from Ted 
Stevens Anchorage International, Fairbanks International to our 
smallest community airports. Of the rural airport system, 47 
are paved and 173 are gravel. And of those 173, 72 of those are 
runways that are less than 3,000 feet. Today most of my remarks 
will be concerning the rural airport system. And we have Mort 
Plumb as part of the panel here to talk about the Ted Stevens 
International and the Fairbanks International.
    I'd like to start by expressing our thanks to the FAA for 
the ongoing cooperative relationship with the State over the 
years. We have found that our agencies share a common mission 
in providing the infrastructure and air transportation in a 
very large and difficult area. The willingness of the staff at 
the FAA to face these challenges, together with their state 
counterparts, continues to produce mutual benefits.
    Mr. Chairman, I'd like to give you an update on the rural 
airport lighting system that's something you have been involved 
in over the years. So I'll give you a little update of where 
we're at on that. The state has a strategic goal to improve 
runways to a 24-hour VFR standard in communities that depend on 
air medical evacuation. A Congressional study conducted in 1999 
identified 63 communities that rely on aviation access for 
medical evacuations that do not have the 24-hour VFR 
capability. These 63 airports are our largest priority for 
having 24-hour VFR access.
    From Fiscal Year 2002 to Fiscal Year 2006, Congress made 
special rural airport lighting appropriations of $38 million to 
the FAA for the lighting and navigation improvements to these 
airports. We have worked cooperatively with the FAA to apply 
these monies to the communities on the list of deficient 
airports to install lighting and navigation systems.
    With these special appropriations we improved medical 
access by deploying portable emergency lights for helicopter 
landing zones in all communities. These lights facilitate safer 
evacuation by the Coast Guard and the National Guard 
helicopters in medical emergency situations.
    For fixed wing land-based operations, at a minimum, an 
adequate runway and runway edge lights are needed for the 24-
hour VFR operations. Preferably, runway edge lights, rotating 
beacon, end identifier lights and precision approach path 
indicators installed on a 3,300-foot runway or longer will be 
developed as a package to allow the 24-hour access for maximum 
safety. Unfortunately, many Alaska village airports are not 
suitable in their current condition for installing permanent 
lighting and require first significant improvements to their 
length, width and surface condition to support nighttime 
aircraft operations.
    Since 1999, we have improved 29 of these 63 airports to the 
24 hour VFR standards. Of those 29 completed airports, there 
were nine that required major reconstruction or relocation in 
order to support the 24 hour access standard. Another 6 
airports will be improved to meet the 24 hour access standard 
by fall of this year. And five of those require major 
reconstruction or relocation. By the fall of 2008, another five 
airports requiring major reconstruction or relocation are 
expected to be improved to meet the standard. In addition to 
the $38 million in special rural Alaska airport funding 
appropriated to the FAA we have allocated approximately $150 
million in AIP funding to these 40 airports to provide this 
access.
    Twenty-two additional communities await the permanent 24 
hour solution for completion beyond 2008. Because most of them 
will require major airport construction, reconstruction or 
reallocation to meet these safe nighttime operations, we 
currently estimate that more than $300 million will be required 
to improve these additional 22 airports.
    Mr. Chairman, I'd like to talk just a moment on the AIP 
Program. With your help, Mr. Chairman, the AIP Program has 
grown from $126 million to $184 million in the last 5 years. 
Alaska has benefited tremendously from the AIP program, 
particularly in our rural communities where airports are our 
highways, and Alaskans are grateful.
    This is not to say we don't have unmet needs. The cost of 
construction in rural Alaska is expensive. At most locations 
the material and equipment needed to construct the airport must 
be barged in from hundreds of miles away during the short 
summer construction season. As communities grow and everyone 
focuses on improved levels of service, such as those identified 
in the 1999 medical access study, we could easily double our 
AIP funding and still find ourselves behind.
    Although Congress has not completed its work on the Fiscal 
Year 2007 AIP budget, I would like to express my concerns 
regarding the impacts of the President's proposed budget would 
have on Alaska's rural airport system. Under the President's 
proposed reduced funding levels, for the primary--for the rural 
system we have--we could have an estimated 43.5 percent 
decrease in primary funding and a 22.6 percent decrease in non-
primary funding available compared to our estimated Fiscal Year 
2006 funding calculations. The House recently passed an AIP 
authorization bill at the $3.7 billion level, which is the 
maximum allowed under the AIP authorization bill, Vision 100. 
We encourage the Senate to consider the House appropriations 
and authorize the maximum appropriation set in Vision 100.
    The current FAA regulations do not allow state aviation 
organization sponsors to conduct the Environmental Impacts 
required for certain types of aviation projects judged to have 
significant impacts.
    Currently, all required EISs must be managed by the FAA. 
Recently authorized through the passage of TEA-LU, the Federal 
Highway Administration allows State Department organizations, 
such as Alaska Department of Transportation, to manage its own 
EISs to completion. We would recommend that consideration be 
given to align FAA regulations to allow knowledgeable sponsors 
such as Alaska Department of Transportation to conduct EISs 
with the FAA oversight as currently done in Environmental 
Assessments.
    In closing, Mr. Chairman, we are well aware that no other 
state in the Nation has greater dependence upon aviation and 
associated airport improvements as a principal means, for the 
vast portions of Alaska the only practical means, of year-round 
access to our communities and residents. This dependence on 
aviation and airports provides Alaska with a unique perspective 
on the need for airport improvements and their relative 
priority to meeting critical system-wide airport needs through 
the AIP. If I or my staff of the Department of Transportation 
and Public Facilities can be of assistance in helping your 
community consider changes necessary to the FAA reauthorization 
bill we would welcome the opportunity to provide that 
assistance. From our international airport systems down to our 
smaller village strips, our airport system is simply critical 
to the state's economy, local economies and the health and 
well-being of all Alaskans. I'd like to thank you, Mr. 
Chairman, and be happy to answer any questions if you may have 
some.
    [The prepared statement of Mr. Torgerson follows:]

   Prepared Statement of John Torgerson, Deputy Commissioner, Alaska 
           Department of Transportation and Public Facilities
    Thank you for the opportunity to testify.
    The State of Alaska operates 258 airports, ranging in size from the 
Ted Stevens Anchorage International, Fairbanks International, to small 
community Airports. Of the rural airport system, 47 are paved, 173 are 
gravel of which 72 runways are less than 3,000 feet. Today, I will 
confine my remarks primarily to those issues that impact our rural 
communities and allow Mort Plumb, our Airport Director for Anchorage to 
testify on that system.
    I would start by expressing our thanks to the FAA for its ongoing, 
cooperative relationship with the state over the years. We have found 
that our agencies share a common mission of providing the 
infrastructure for air transportation in a very large, difficult, area. 
The willingness of the staff at FAA to face these challenges together 
with their state counterparts continues to produce mutual benefits.
Essential Air Service
    I would like to recognize your support for the Essential Air 
Service, and thank you for that continued support. This program remains 
a critical support for safe, scheduled passenger service to 39 Alaska 
communities, out of over 200 communities that are eligible. In some 
cases, the service made possible by this program is the only way that 
many Alaskans can get the medical help and other vital services that 
they need.
Runway Lighting
    The state has a strategic goal to improve runways to a 24-hour VFR 
standard in communities that depend on air medical evacuation. A 
Congressional study conducted in 1999 identified 63 communities that 
relied on aviation access for medical evacuations and did not have 24-
hour VFR capable airports. These 63 airports are our highest priority 
for providing 24 hour VFR capability.
    From FFY02 through FFY06, Congress made special Alaska Rural 
Airport Lighting appropriations of $38 million to the FAA for the 
lighting and navigation improvements to Alaska's airports. We have 
worked cooperatively with the FAA to apply these monies to the 
communities on the list of deficient airports to install lighting and 
navigation systems.
    With these special appropriations, we have improved medical access 
by deploying portable emergency lights for helicopter landing zones at 
all communities. These lights facilitate safer evacuation by Coast 
Guard and National Guard helicopters in medical emergency evacuations. 
Civilian operators have also become certified to use these portable 
lights.
    For fixed wing land based operations, at a minimum, an adequate 
runway and runway edge lights are needed for 24 hour VFR operations. 
Preferably, runway edge lights, rotating beacon, end identifier lights, 
and precision approach path indicators, installed on a 3,300-foot or 
longer runway, will be developed as a package to allow 24-hour VFR 
access with maximum safety. Unfortunately, many Alaskan village 
airports are not suitable in their current condition for installing 
permanent lighting and require first making significant improvements to 
their length, width and surface condition to support nighttime aircraft 
operations.
    Since 1999, we have improved 29 of the 63 airports to 24-hour VFR 
standards. Of these 29 completed airports, there were 9 airports that 
required major reconstruction or relocation in order to support the 24-
hour access standard, due to their substandard condition. Another 6 
airports will be improved to meet the 24-hour VFR access standard by 
fall of this year, with 5 of these airports requiring major 
reconstruction or relocation. By the fall of 2008, another 5 airports 
requiring major reconstruction or relocation are expected to be 
improved to meet the 24-hour VFR access standard. In addition to a 
portion of the $38 million in special Rural Alaska Lighting funding 
appropriated to FAA, we will have allocated approximately $150 million 
in AlP funding to bring these 40 airports up to 24-hour VFR standards 
by 2008.
    Twenty-two additional communities await a permanent 24-hour VFR 
solution for completion beyond 2008, because most of them will require 
major airport construction, reconstruction or relocation to meet the 
standards for safe nighttime operations. We currently estimate that 
more than $300 million will be required to improve these additional 22 
community airports to provide 24-hour VFR access.
    The continuing support of Congress is greatly appreciated in 
meeting this vital goal of providing 24 hour VFR capable airports to 
these communities.
Safety
    The FAA and all of those in the aviation community in Alaska should 
be commended for their efforts in aviation safety. The reduction in 
incidents/accidents that has been achieved in Alaska is remarkable. The 
Capstone program has contributed to this reduction, as well as 
achieving a large improvement in access for aviation in Alaska. This 
improved access results from the fact that better weather reporting 
means better IFR success rate, and therefore more completed flights. 
The State of Alaska fully supports an accelerated transition to a new 
national airspace system using space-based navigational aids.
    Also, the Medallion program has made a significant contribution to 
aviation safety. You will hear much about the good this program has 
done, but simply stated, since many state employees fly to all corners 
of the state, we all look for the Medallion logo on each airplane we 
board.
TSA
    We in Alaska are as concerned about transportation security as any 
state in the Nation. We fully support the efforts to protect the 
traveler and our Nation's security. We have many transportation assets, 
such as the oil pipeline and terminal, the Port of Anchorage, the oil 
fields, and others, the loss or disruption of which would be a severe 
blow to our state and the country.
    As it is currently structured, the TSA has three separate 
organizations in Alaska. We believe that the three organizations could 
be streamlined into one to provide consistent security oversight within 
Alaska.
    We believe, also, that at Alaska's rural airports, transportation 
security can be achieved in a more efficient manner than at present. 
Transportation security programs at these airports should be based on 
threat analysis.
    As transportation security is presently implemented at Alaska's 
rural airports, oftentimes the number of TSA employees outnumbers other 
airport employees. If a threat-based approach were used, security 
interests in Alaska could be met with considerably less investment.
AIP Program
    With your help, Mr. Chairman, the AIP program has grown from $126 
million to $184 million in the last five years. Alaska has benefited 
tremendously from the AIP program, particularly in our rural 
communities, where airports are our highways, and Alaskans are 
grateful.
    This is not to say that we don't have unmet needs. The cost of 
construction in rural Alaska is expensive. At most locations, the 
materials and equipment needed to construct an airport must be barged 
in from hundreds of miles away during a very short summer construction 
season. As communities grow and everyone focuses on improved levels of 
service such as those identified in the 1999 medical access study, we 
could easily double our AIP spending and still find ourselves behind.
    Although Congress has not completed its work on the FFY07 AIP 
budget, I would like to express my concerns regarding the impacts the 
President's proposed budget would have on Alaska's Rural Airport 
System. Under the President's proposed reduced funding levels, for the 
Rural System (Non-Discretionary funding only) we could have an 
estimated 43.5 percent decrease in Primary funding and a 22.6 percent 
decrease in Non Primary funding available compared to our estimated 
FFY06 funding levels. The Alaska International Airport System and all 
Discretionary funding are excluded from these calculations. The House 
recently passed an AIP appropriations bill at the $3.7 billion level, 
which is the maximum allowed under the AIP Authorization Bill, Vision 
100. We encourage the Senate to consider the House AIP appropriations 
bill and authorize the maximum appropriation set in Vision 100.
Wetlands
    The application of the National Environmental Policy Act, as well 
as section 4(f) of the Department of Transportation Act of 1966 (49 
U.S.C. 303(c)), to all airports, including rural airports, needs to be 
clarified. At some point in time, a decision was made to designate a 
piece of ground as an airport. It seems that designation identifies the 
dominant use, and clearly specifies the objective for the designated 
land.
    I am not advocating running roughshod over the environment as these 
airports are developed. I am advocating common sense application of 
NEPA, Sec. 4(f), and other environmental laws to lands that have been 
long designated for airport purposes. A great deal of time and money is 
spent on living up to the letter of the law. Stringent application of 
these laws results in added cost and protracted delays in needed 
projects. Recognition of the primary purpose of lands designated as 
airports should be incorporated into the implementation of 
environmental laws at airports. For some of our rural airports 
improvements, we are being required to develop a full Environmental 
Impact Statement. We believe that the small footprints of disturbance 
from our rural airport construction should allow us to conduct 
environmental assessments, rather than a full NEPA Environmental Impact 
Statement.
Environmental Impact Statement Development
    The current FAA regulations do not allow State Aviation 
Organization sponsors to conduct the Environmental Impact Statements 
(EIS) required for certain types of aviation projects judged to have 
significant impacts.
    Currently, all required EISs must be managed by the FAA. Recently 
authorized through the passage of TEA-LU, the Federal Highway 
Administration (FHWA) allows State Transportation Organizations such as 
ADOT&PF to manage EISs to completion. We recommend that consideration 
be given to changing FAA regulations to allow knowledgeable sponsors 
such as ADOT&PF to conduct EISs with FAA oversight as currently done 
with Environmental Assessments.
    The Airports Division staff at FAA review and comment on all 
Environmental Assessments (EA) and Categorical Exclusion (CE) 
documents, but does not typically write environmental documents. 
Consequently, their level of expertise at environmental documentation 
may be less than the State Transportation Organization staff who 
routinely write EAs and CEs for aviation and highway projects as well 
as EIS documents for highway projects. This can lengthen the amount of 
time needed to conduct the EIS as well as the fact that there are 
relatively few FAA staff to manage EISs and also review and approve EAs 
and CEs. We at ADOT&PF believe that we can move the EISs more 
expeditiously through the process. Empowering the State Transportation 
Organizations in the EIS process will also make them better able to 
respond to other agencies, the public and the project proponents.
Closing
    Mr. Chairman, as you are well aware, no other state in the Nation 
has greater dependence on aviation and the associated airport 
improvements as the principal means, and for vast portions of Alaska 
the only practical means, of year round access to our communities and 
residents. This dependence on aviation and airports provides Alaska 
with a unique perspective on the need for airport improvements and 
their relative priority in meeting critical system wide airport needs 
through the AIP. If I or the staff of the Alaska Department of 
Transportation and Public Facilities can be of assistance in helping 
your Committee consider changes necessary to the FAA reauthorization 
bill, we would welcome the opportunity to provide any assistance 
requested.
    From our international airports on down to the smallest village 
strip, our airport system is simply crucial to the state's economy, 
local economies, and the health and well-being of all Alaskans.
    Alaskans appreciate the continuing support of the FAA and the 
Congress for aviation in Alaska.
    I thank you for the opportunity today, and will answer any 
questions the members may have for me.

    The Chairman. Thank you very much, John. Let's just go down 
the table if that's all right. The next would be Bob 
Hajdukovich, Chief Operating Officer, Frontier Flying Service. 
Good morning, Bob.

STATEMENT OF BOB HAJDUKOVICH, CHIEF OPERATING OFFICER, FRONTIER 
                         FLYING SERVICE

    Mr. Hajdukovich. Good morning, Chairman Stevens. Thank you 
for allowing me the opportunity to testify today with regard to 
my experience with the unique issues facing the aviation 
industry in Alaska today.
    In the past 18 years, I have been witness to a distinctive 
culture shift in the aviation community. Safety culture is no 
longer a cliche or a catch phrase but rather a way of life for 
most commercial operators in Alaska today. I directly attribute 
this shift in the culture to programs such as the Medallion 
Foundation, Capstone, the Alaska Air Carriers Association, the 
Alaska Aviation Coordination Council, AOPA, and our FAA 
leadership in Alaska among others, and Pat and John.
    This safety culture has taken root. The industry is 
committed to positive change, but continues to struggle. Just 6 
years ago, Frontier paid a system-wide average price of 70 
cents a gallon for jet fuel and today's price is $2.85 per 
gallon, a 307 percent increase. We have a range from $2.30 on 
jet fuel to $5.50 to some of the out stations. We get one-half 
of the insurance coverage for twice the premium dollar today 
while frivolous litigation continues to plague aviation. Our 
engine and maintenance costs have risen 5 to 7 percent per 
year. While these challenges are not unique to Alaska, our need 
for improved infrastructure is.
    I am what one might consider a Generation X Alaskan pilot. 
I was born in Alaska and am fortunate to have a rich aviation 
history in my family as well as my wife's. When I first started 
full-time at Frontier in 1988 the industry had a culture of 
``get the job done''. LORAN was the best thing since sliced 
bread, except it didn't work in two-thirds of the state. I can 
look back on my relatively short career in aviation and see a 
great and continuing evolution of three things: infrastructure, 
technology and safety culture.
    I would like to point out some of the notable events that 
our company has been witness to in the past 15 years. In 
infrastructure, we've seen GPS approaches; AWOS, automated 
weather observation systems; weather cameras; GBTs or ground-
based transmitters; wide area augmentation system, we have a 
greater accuracy with the GPSs; downsizing of flight service 
stations; and airport improvement projects.
    In technology, the advent of the GPS; cockpit voice 
recorders for nine or more seats in scheduled service; traffic 
collision avoidance systems for nine or more seats in scheduled 
service; ground proximity warning systems for nine or more 
seats; digital flight data recorders for nine or more seats; 
and terrain awareness warning systems for nine or more seats 
and now driving down into the five-seat turbine aircraft; 
Capstone I and II in Bethel and Southeast Alaska; sophisticated 
desktop flight simulation devices which are many generations 
beyond what I would have considered we could have done with the 
desktop computers. We just recently invested in a simulation 
device just based on desktop simulation. And ADS-B, Automatic 
Dependent Surveillance-Broadcast.
    In culture, Capstone made for affordable installation of 
collision and terrain avoidance and situational awareness 
equipment. Post 9/11 insurance rates, which we're still 
recovering from, putting a greater emphasis today on safety 
records and history of accidents when renewing insurance. It 
couldn't be a better time for the Medallion Foundation. 
Security awareness and mandated programs driving down into even 
the smaller carriers. Conversion of Part 121 operations with a 
greater emphasis on operational control. The Medallion 
Foundation awarding stars emphasizing operational control, 
company safety programs, use of simulation for controlled 
flight into terrain situations, maintenance and ground 
personnel training and procedures and internal audit programs. 
Risk assessment: the process of elevating the decision to 
accept or not accept risk to the highest level of management 
necessary to address the level of risk. Capstone II, affordable 
installation of WAAS compatible equipment, traffic awareness 
and creation of WAAS-based approaches and airways. The Rural 
Service Improvement Act or the Bypass Mail Program with an 
emphasis on carrying passengers in Part 121 operations and 
reducing costs to the Postal Service. While there is much 
controversy about many facets of the Bypass Mail System, the 
number of air carriers providing service to the remote 
communities in Alaska has shrunk dramatically. Because fewer 
flights are being flown on a daily basis, the risk of accidents 
has been reduced. However, the aircraft left in the system are 
larger and require better airport conditions. To maximize the 
benefit of Part 121 operations, the airports and associated 
airway infrastructure need to be commensurate with the high 
standards and demands of 121 operations. ATOS, the Air 
Transportation Oversight System, is an FAA program of oversight 
that emphasizes evaluating the elements of certification and 
the validation of certificated 121 carriers. And the ASAP 
Program, Aviation Safety Action Program, a collaborative non-
reprisal program with the industry, the FAA and employees that 
gathers data on safety issues that would not otherwise have 
been reported.
    So what's missing? I guess that's why I'm here today, to 
let you know the needs of aviation in Alaska.
    1. Continued funding of Medallion Foundation.
    2. Funding support for Capstone Phase III. The total amount 
to outfit the rest of the state's aircraft in GA and commercial 
is upwards of $70 million. This will put WAAS units and ADS-B 
receivers in most of the active fleet in Alaska. While the up-
front costs seem large, it will enable the FAA to look down the 
road and decommission some of the legacy ground aids that are a 
draw on the system. The FAA must follow through on its 
commitment to install ground-based transmitters throughout the 
state. This provides us with improved rural access.
    3. Continued support on maximum AIP funding. We would like 
to see more discretion given to the state on surface 
maintenance spending versus capital projects. The Bypass Mail 
System has encouraged Part 121 operations. The state will 
inevitably see more Part 121 operations and operators in the 
future. Today AIP funding is linked to enplanements, which 
should also take into consideration the type of operation at 
the runway. For example, if the runway is served by a 121 
carrier, the AIP funding formula should automatically consider 
the airport to be a primary airport and be exempt from the 
10,000-enplanement requirement. This will ensure that the 
airport gets funded for the safest level of ground operations.
    In conclusion, I'd like to thank you for joining us in 
pioneering new technologies and proactive safety systems. As a 
friend of mine once said, the problem with being a pioneer is 
that you get the most arrows. The unprecedented Part 135/121 
safety record in 2005 speaks not only to your continued 
support, but to our desire to be the standard to which other 
parts of our great country are measured. Thank you for your 
time.
    [The prepared statement of Mr. Hajdukovich follows:]

    Prepared Statement of Bob Hajdukovich, Chief Operating Officer, 
                        Frontier Flying Service
    Good morning, Chairman Stevens, and Members of the Committee. Thank 
you for allowing me the opportunity to testify today with regard to my 
experience with the unique issues facing the aviation industry in 
Alaska today.
    In the past eighteen years, I have been witness to a distinctive 
culture shift in the aviation community. Safety culture is no longer a 
cliche or catch phrase but rather a way of life for most commercial 
operators in Alaska today. I directly attribute this shift in culture 
to programs such as the Medallion Foundation, Capstone, the Alaska Air 
Carriers Association, The Alaska Aviation Coordination Council, AOPA 
and our FAA leadership in Alaska among others.
    This Safety culture has taken root. The industry is committed to 
positive change, but continues to struggle; just six years ago Frontier 
paid a system wide average price of 70 cents per gallon for jet fuel 
and today's price is $2.85 per gallon (a 307 percent increase). We get 
one-half the insurance coverage for twice the premium dollar while 
frivolous litigation continues to plague aviation. Our engine and 
maintenance cost have risen five to seven percent per year. While these 
challenges are not unique to Alaska, our need for improved 
infrastructure is.
    I am what one might consider a Generation X Alaskan pilot. I was 
born in Alaska and am fortunate to have a rich aviation history in my 
family as well as my wife's. When I first started full time at Frontier 
in 1988 the industry had a culture of ``get the job done.'' LORAN was 
the best thing since sliced bread, except it did not work in two-thirds 
of the state. I can look back on my relatively short career in aviation 
and see a great and continuing evolution of three things; 
infrastructure, technology and safety culture.
    I would like to point out some of the notable events that our 
company has been witness to just in the past fifteen years:
Infrastructure
  <bullet> GPS approaches
  <bullet> AWOS--automated weather systems
  <bullet> Weather Cameras
  <bullet> GBT--Ground Based Transmitters
  <bullet> WAAS--Wide Area Augmentation System
  <bullet> Downsizing of Flight Service Stations
  <bullet> Airport Improvement projects
Technology
  <bullet> GPS
  <bullet> CVR (Cockpit Voice Recorder) for 9 or more seats
  <bullet> TCAS (Traffic Collision Avoidance System) for 9 or more 
        seats
  <bullet> GPWS (Ground Proximity Warning System) for 9 or more seats
  <bullet> DFDR (Digital Flight Data Recorder) for 9 or more seats
  <bullet> TAWS or EGPWS (Terrain Awareness Warning System) for 9 or 
        more seats
  <bullet> Capstone I / II (Bethel and Southeast Alaska)
  <bullet> Sophisticated desktop flight simulation devices
  <bullet> ADS-B--Automatic Dependent Surveillance-Broadcast
Culture
  <bullet> Capstone I--affordable installation of collision, terrain 
        avoidance and situation awareness equipment.

  <bullet> Post 9/11 insurance rates--putting a greater emphasis on 
        safety records and history of accidents when renewing 
        insurance.

  <bullet> Security awareness and mandated programs.

  <bullet> Conversion to Part 121--greater operational control.

  <bullet> Medallion Foundation--Stars emphasizing Operational Control, 
        Company Safety Program, use of simulation for Controlled Flight 
        into Terrain situations, Maintenance and Ground personnel 
        training and procedures and Internal Audit Programs.

  <bullet> Risk Assessment--The process of elevating a decision, to 
        accept or not accept risk, to the highest management level 
        necessary to address the ``Level'' of risk.

  <bullet> Capstone II--Affordable installation of WAAS compatible 
        equipment, traffic awareness and creation of WAAS based 
        approaches and airways.

  <bullet> RSIA--Rural Service Improvement Act--emphasis on carrying 
        passengers and Part 121 operations and reducing costs to the 
        Postal Service. While there is much controversy about many 
        facets of RSIA, the number of Air Carriers providing service to 
        the remote communities in Alaska has shrunk dramatically. 
        Because fewer flights are being flown on a daily basis, the 
        risk of accidents has been reduced. However, the aircraft left 
        in the system are larger and require better airport conditions. 
        To maximize the benefit of Part 121 operations, the airports 
        and associated airway infrastructure need to be commensurate 
        with the high standards and demands of 121.

  <bullet> ATOS--Air Transportation Oversight System--An FAA method of 
        oversight that emphasizes evaluating elements of certification 
        and validation of certificated 121 carriers.

  <bullet> ASAP--Aviation Safety Action Program--a collaborative non-
        reprisal program with the industry, FAA and employees that 
        gathers data on safety issues that would not have otherwise 
        been reported.

So What's Missing?
    Which I guess is really why I am here today, to let you know the 
needs of aviation in Alaska.

        1. Continued funding of the Medallion Foundation.

        2. Funding support for Capstone Phase III--The total amount to 
        outfit the rest of the state's aircraft (GA and Commercial) is 
        $70 million. This will put WAAS units and ADS-B in most of the 
        active fleet in Alaska. While the up-front costs seem large, it 
        will enable the FAA to look down the road and decommission some 
        of the legacy ground aids that are a draw on the system. The 
        FAA must follow through on its commitment to install ground 
        based transmitters (GBT) throughout the state.

        3. Continued support on maximum AIP funding--We would like to 
        see more discretion given to the state on surface maintenance 
        spending versus capital projects. RSIA has encouraged Part 121 
        Operations. The state will inevitably see more Part 121 
        operations and operators in the future. Today, AIP funding is 
        linked to enplanements but should also take into consideration 
        the type of operation at the runway. For example, if the runway 
        is served by a Part 121 carrier, the AIP funding formula should 
        automatically consider the airport to be a primary airport and 
        be exempt from the 10,000-emplanement requirement. This will 
        ensure that the airport gets funded for the safest level of 
        ground operation.

    In conclusion, I would like to thank you both for joining us in 
pioneering new technologies and proactive safety programs. As a friend 
of mine once said, ``The problem with being a pioneer is that you get 
the most arrows.''
    The unprecedented Part 135/121 safety record in 2005 speaks not 
only to your continued support, but to our desire to be the standard to 
which other parts of our great country are measured.
    Thank you for your time.

    The Chairman. Our next witness is Mort Plumb, the Director 
of the Anchorage Airport.

   STATEMENT OF MORTON V. PLUMB, JR., DIRECTOR, TED STEVENS 
                     INTERNATIONAL AIRPORT

    Mr. Plumb. Good morning, Chairman Stevens, members of the 
staff. My name is Mort Plumb, I'm Director of the Ted Stevens 
Anchorage International Airport. I appreciate the opportunity 
to speak with you today about the particular interests of our 
airport and about matters of importance to commercial service 
airports across the country.
    I'm proud of the airport's role in the National Air 
Transportation System as the primary transpacific gateway for 
international cargo, an important stop for international 
passenger routes as well as a commercial hub for some 260 
communities throughout Alaska. Since the beginning of airfield 
operations more than 50 years ago, Anchorage International has 
grown to be number one for landed gross weight for cargo 
airport and third ranking cargo airport in the world based on 
cargo tonnage. Anchorage International air cargo operations 
have averaged 7 percent growth over the past 10 years and we 
expect Anchorage air cargo operations to continue to increase.
    Due to the strong growth in Asia-U.S. trade and record fuel 
prices, our Nation reaps economic benefits as more and more 
cargo carriers capitalize on the efficiencies afforded by 
Alaska's strategic position on the Pacific Rim. They recognize 
that a refueling stop at Anchorage is the key to maximum cargo 
payloads and peak economic efficiency for transpacific 
freighter flights. Further, thanks to your leadership, Mr. 
Chairman, in 2004 Congress approved flexibility of 
international and domestic carriers to achieve additional 
efficiencies by cross-loading, sorting and clearing cargo in 
Anchorage to reach multiple locations in the U.S. for eastbound 
freight and Asia for westbound freight. So far, at least four 
carriers are using this flexibility to reach more destinations 
more efficiently, all to the benefit of the United States 
economy.
    The visitor industry continues to increase passenger 
traffic as well. This summer construction will begin on a 
$176.8 million passenger terminal project to complement the new 
C Concourse which opened in 2004. This project is scheduled to 
be completed by 2010. For both airports in the Alaska 
International Airport System, Ted Stevens Anchorage 
International Airport and Fairbanks International Airport, 
Passenger Facility Charges or PFCs are part of the formula for 
success. As I'll discuss in a minute, Alaska's airport system 
joins other airports across the country in requesting updates 
to the PFC program.
    In addition to passenger infrastructure improvements, 
Anchorage International will see over $100 million in private 
expansion of air cargo facilities. As one of the first airports 
that will host the Airbus A-380 in 2009 on FedEx and UPS ramps 
here, the airport is preparing its airfield with the help of 
the FAA Letter of Intent discussed by the Administrator. The 
LOI program, as I will discuss, is critical to Anchorage's 
ability to accommodate this 1.3 million pound aircraft.
    Keeping in mind the very strong performance and outlook 
here at Anchorage International, let me turn now to a major 
issue with which we need this Committee's continued and 
strengthened support.
    Chairman Stevens, your staff has worked diligently over the 
past 3 years on the Transit Without Visa Waiver issue, better 
known as TWOV. I testified last summer before your Committee 
and am back again this year still asking for your help in 
resolving the TWOV issue. I am disappointed to report to you 
that rather than being closer to a resolution with DHS, TSA and 
CBP, we quite frankly see no end in sight. In April, Governor 
Murkowski and I met with Secretary Michael Chertoff here in 
Alaska to seek his help in reinstating TWOV in Alaska. Although 
Secretary Chertoff was receptive and committed to provide an 
answer 30 days from April 4th, the issue remains unresolved. I 
have learned that DHS has again gained interest in working this 
issue since July 3rd when advance copies of my testimony were 
made available. However, DHS has not yet--has yet been unable 
to develop a solution satisfactory to all its component 
interests.
    In the past, we've tried to allay the concern that 
reinstatement of TWOV at Anchorage would set an undesirable 
precedent. In reality, however, under well established existing 
precedent over the past 20 years, Anchorage transit stops have 
been handled according to Anchorage's unique circumstances 
without establishing precedent replicated at other U.S. 
airports. A program that allows non-U.S. passengers without a 
U.S. visa to deplane into the secure transit lounge at Ted 
Stevens Anchorage International Airport and get back on the 
same aircraft without re-screening is supported by Anchorage's 
special circumstances and sets no precedent for other airports.
    Another concern is that a nationwide transit program should 
not be reinstated. But DHS need not reinstate a national 
transit program. DHS could reinstate the program only to 
include flights where all passengers arrive and depart on the 
same aircraft in flight and remain in a secure facility, 
physically separated from non-transit gates. Or DHS could 
simply limit the reinstatement program to Anchorage.
    Our original, simple request to CBP was to allow carriers 
to enplane and deplane passengers on transit flights into our 
special, secure transit facility at Anchorage when stopping en 
route through Alaska to other foreign destinations. In this 
simple request, well meaning Federal officials have identified 
a thicket of technical issues, none of which, we believe, pose 
any reasonable threat to U.S. aviation security. The largest 
issue, for example, is TSA's concern that no Federal employee 
would personally re-screen these few hundred passengers each 
day who were previously screened at a foreign point of origin 
and who merely visit our transit lounge before continuing to a 
foreign destination on the same aircraft on which they arrived. 
In doing so, DHS is reading a security issue into what is 
really a labor issue. Based on what we believe to be a 
stretched reading of the Aviation and Transportation Security 
Act (ATSA), the TSA believes it raises an issue to allow a TSA-
screened passenger to join such a flight transiting through 
Anchorage to a foreign destination, though there appear to be 
no material security concerns. Mr. Chairman, we request your 
Committee to convey to DHS that ATSA's requirement that Federal 
employees do the screening for U.S. origin flights and flight 
segments is a labor and control provision. It stipulates who 
must do the screening at U.S. airports, and does not dictate 
that foreign screened passengers must be re-screened or kept 
separate from TSA-screened passengers.
    We have spent over $1 million in terminal modifications to 
separate CBP-cleared passengers from un-cleared passengers. Now 
TSA is asking us to again modify the terminal to separate the 
foreign-screened passengers from the TSA-screened passengers. 
Any justification for this requirement disappears in the face 
of the TSA's position that such differently screened passengers 
may not mix in the terminal, but they can mix onboard the 
aircraft. As a matter of fact, we understand that mixing on the 
airplane has not caused any reported incidents at other 
airports where it's been occurring successfully for some time.
    Let me just quickly explain what the DHS is asking us to do 
with these people. They are asking that these passengers 
deplane, go through a document certification, technically exit 
to the United States by going outside the secure sterile area, 
come back into the sterile area through TSA screening, then go 
through the U.S. Visit program, fill out the forms and get back 
on the airplane. It appears to be a waste of time, manpower, 
labor and does not add any security to this country.
    All of these processes must be done within the 90-minute 
ground time. The airline staff spends the entire time getting 
passengers through DHS process and back on the airplane just to 
be able to board a few originating passengers in Anchorage.
    Currently we have 18 international passenger flights that 
arrive each week, only four of which are actually permitted to 
deplane into the terminal. These flights have operated safely 
and securely for nearly 20 years without incident. We truly 
believe these modifications are unnecessary because the basis 
for the demands have no material security rationale. But if DHS 
insists on imposing these segregation or re-screening 
requirements that cannot, at the end of the day, reasonably be 
justified as furthering U.S. security interests, then we 
believe the Federal Government should bear the burden of paying 
these costs of infrastructure and additional screeners.
    Our main goal continues to be that all passengers be 
allowed off the airplane into the sterile, secure transit 
facility with minimal processing, yet exposed to U.S. security 
officials. We firmly believe the additional processing that DHS 
is requiring here in Anchorage will soon push carriers to over-
fly Alaska and the U.S. altogether, to the detriment of both 
the Alaska economy and U.S. security.
    Let me turn to an issue now that has been addressed by some 
of the other panelists. Although the TWOV and transit passenger 
processing are our most urgent issues, Federal funding issues 
loom large on the horizon. Alaska could face a major funding 
challenge were AIP funding allowed to fall below $3.2 billion. 
A level of funding below this amount would greatly reduce 
Anchorage's critical cargo entitlements. As you are aware, 
Anchorage serves as a critical transit and transfer point for a 
large proportion of international air cargo to and from the 
United States. Funding for our cargo support infrastructure is 
truly a concern for our national economy. We recommend that 
cargo entitlements be increased a modest .05 percent, from 3.5 
to 4 percent, to better balance the increased cargo 
infrastructure needs compared with passenger infrastructure 
needs.
    With regard to flexibility in AIP spending, in addition to 
AIP formula issues, restrictions on the use of these funds has 
also become an issue. The current FAA regulations are 
restrictive on the ability of airports to use their entitlement 
funding. With greater flexibility, airports could use this 
funding a little more efficiently.
    For example, it would make sense to use AIP funds to 
purchase a larger runway snow blower here at Anchorage. This 
new snow blower which clears twice the width of any current 
equipment would make our winter operations more efficient, 
safer for the airlines, economical--and increase safety. The 
only manufacturer with a proven reliability is a foreign 
entity. Special condition nine of the AIP grant agreement 
precludes us from purchasing this and other essential pieces of 
equipment using AIP funds.
    PFC flexibility. Although airports enjoy somewhat greater 
flexibility on the use of Passenger Facility Charges, current 
FAA restrictions include sometimes burdensome limits on PFC 
use. In addition, current FAA regulations reduce AIP funding to 
both medium and large hub airports when they raise Passenger 
Facility Charges to any level above $3.00. This provision 
effectively penalizes a medium hub airport such as Anchorage 
that collects a higher PFC, but does not have a large hub 
passenger volume to make up for the loss of AIP funds. When the 
FAA states a larger reservoir of PFC dollars remains untapped 
by some airports, it doesn't include or consider the higher 
penalties if you do get more AIP funds. PFCs are not Federal 
funds. Those collections should not be subject to any offset of 
Federal dollars for medium hub airports. Anchorage is a perfect 
example of an airport that could grow this capital funding 
source for much needed projects were the AIP offset rule 
abolished for medium hubs. To strengthen the PFC program for 
the benefit of airports nationwide, we do support a higher 
maximum PFC. But we also need to reduce the penalty for 
collecting a higher PFC.
    Turning now from general infrastructure funding, I want to 
address the special challenge of security funding. As you know, 
the airport operating environment has changed dramatically 
since the 9/11 attacks. The Transportation Security 
Administration continues to place new requirements on airports 
without providing airports any funding to carry out the new 
requirements. In fact, Senator, we are still waiting for an LOI 
promised by the former TSA Administrator, Admiral Loy, who in 
2003 committed to this airport and committed to you and to the 
staff.
    While we have worked very closely with TSA leadership, 
Anchorage was promised that a new security requirement would be 
reimbursed by TSA. To date, these commitments have not been 
fulfilled. To date, Anchorage has spent $19.6 million to fund 
TSA-mandated security enhancements in Concourse C and is 
projected to spend another $15 million in Concourse A. The 
failure of the Federal Government to fund these security 
mandates has compelled Anchorage to use revenues that would 
otherwise be available for important infrastructure 
developments. This burden has now been placed on our air 
carriers, many in dire financial crisis. I am hopeful the Ted 
Stevens Anchorage International Airport will participate in the 
proposed funds in the 2007 DHS spending bill.
    In conclusion, the Ted Stevens Anchorage International 
Airport competes in a worldwide market of Olympic proportions. 
Our nation's good economic scores in today's global business 
environment reflect Anchorage's contribution in delivering 
value for the lowest cost. Air cargo is claiming a growing 
proportion of international trade within the world. The Federal 
rules by which gateway airports must play and rules that burden 
AIP funds and PFCs have an important effect on our ability to 
provide services at the lowest possible cost to keep pace with 
other market forces. We believe our proposals for 
infrastructure and procedural enhancements while ensuring 
aviation safety and security are essential.
    Finally, I would be remiss if I did not note my great 
appreciation for the incredible support of our outgoing 
Secretary of Transportation, Norm Mineta. His personal support 
to me and to the Ted Stevens Anchorage International Airport 
has been superb. Under his leadership and that of Administrator 
Blakey, former Associate Administrator of Airports, Woodie 
Woodward, Acting Associate Director Kate Lang and Alaska 
Airports Division Deputy Manager, Deb Roth, the Ted Stevens 
Anchorage International Airport has become the Olympic capable 
world class airport it is today.
    Thank you, Chairman Stevens and Administrator Blakey, for 
your continuing leadership in providing resources and adopting 
new cargo legislation to help this great airport serve the 
Nation's interests. I would also like to thank Senator Inouye 
for his continued support for Alaska and our international 
airport system. We look forward to working with you to 
implement these reforms we have suggested today to continue our 
strong record to make this a secure airport and an economical 
airport for our air carriers. Mr. Chairman, that concludes my 
remarks.
    [The prepared statement of Mr. Plumb follows:]

   Prepared Statement of Morton V. Plumb Jr., Director, Ted Stevens 
                    Anchorage International Airport
    Good morning, Chairman Stevens and Members of the Committee. My 
name is Mort Plumb and I am the director of Ted Stevens Anchorage 
International Airport. I appreciate the opportunity to speak with you 
today about the particular interests of the Ted Stevens Anchorage 
International Airport (ANC) and about matters of importance to 
commercial service airports across the country.
    I am proud of the Airport's role in the National Air Transportation 
System as the primary transpacific gateway for international cargo, an 
important stop for international passenger routes as well as a 
commercial hub for some 260 communities throughout Alaska. Since the 
beginning of airfield operations more than 50 years ago, Anchorage 
International has grown to be number one for landed gross weight for 
cargo airports and the third ranking cargo airport in the world based 
on cargo tonnage. Anchorage's international air cargo operations have 
averaged 7 percent growth over the past 10 years and we expect 
Anchorage's air cargo operations to continue this trend.
    Due to strong growth in Asia-U.S. trade and record fuel prices, our 
Nation reaps economic benefits as more and more cargo carriers 
capitalize on efficiencies afforded by Alaska's strategic position on 
the Pacific Rim. They recognize that a refueling stop at ANC is the key 
to maximum cargo payloads and peak economic efficiency for transpacific 
freighter flights. Further, thanks to your leadership, Mr. Chairman, in 
2004 Congress approved flexibility of international and domestic 
carriers to achieve additional efficiencies by cross-loading, sorting 
and clearing cargo in ANC to reach multiple locations in the U.S. for 
eastbound freight and in Asia for westbound freight. So far, at least 
four carriers are using this flexibility to reach more destinations 
more efficiently--all to the benefit of the United States economy.
    The visitor industry continues to increase passenger traffic as 
well. This summer construction will begin on a $176.8 million Passenger 
Terminal project to complement the new C Concourse which opened in 
2004. This project is scheduled to be completed by 2010. For both 
airports in the Alaska International Airport System (Ted Stevens 
Anchorage International Airport and Fairbanks International Airport) 
Passenger Facility Charges, or PFCs, are part of the formula for 
success, but as I will discuss in a minute, Alaska's airport system 
joins other airports across the country in requesting important updates 
in the PFC program.
    In addition to passenger infrastructure improvements, Anchorage 
International will see over $100 million in private expansion of air 
cargo facilities. As one of the first airports that will host the 
Airbus A-380 in 2009 on FedEx and UPS ramps here, the airport is 
preparing its airfield, with the help of FAA Letter of Intent funds. 
Modifying the LOI program, as I will discuss, is critical to ANC's 
ability to accommodate this 1.3 million-pound aircraft.
    Keeping in mind the very strong performance and outlook here at 
Anchorage International, let me turn now to the major issues with which 
we need this Committee's continued and strengthened support.
Transit Without Visa
    Senator Stevens, your staff has worked tirelessly over the last 
three years, on the Transit Without Visa issue. I testified last summer 
before your Committee and am back again this year still asking for your 
help in resolving the TWOV issue. I am disappointed to report to you 
that rather than being closer to a resolution with DHS, TSA, and CBP, 
we quite frankly, see no end in sight. In April, Governor Murkowski and 
I met with Secretary Michael Chertoff here in Alaska to seek his help 
in reinstating TWOV in Alaska. Although Secretary Chertoff was 
receptive, the issue remains unresolved.
    Our original, simple request to CBP was to allow carriers to 
enplane and deplane passengers on transit flights into our special, 
secure, transit facility at ANC when stopping en route through Alaska 
to other foreign destinations. In this simple request, well-meaning 
Federal officials have identified a thicket of technical issues, none 
of which, we believe, pose any appreciable threat to U.S. aviation 
security. The largest issue, for example, is TSA's concern that no 
Federal employee would personally re-screen these few hundred 
passengers each day who were previously screened at a foreign point of 
origin under ICAO standards, and who merely visit our transit lounge 
before continuing to a foreign destination on the same aircraft on 
which they arrived. Based on what we believe to be a stretched reading 
of the Aviation and Transportation Security Act, the TSA believes it 
raises an issue to allow a TSA-screened passenger to join such a flight 
transiting through Anchorage to the foreign destination, though there 
appear to be no material security concerns.
    We have spent over $1 million in terminal modifications to separate 
CBP-cleared passengers from un-cleared passengers. Now TSA is asking us 
to again modify the terminal to separate the ICAO-screened passengers 
from TSA-screened passengers. Any justification for this requirement 
disappears in the face of the TSA's position that such differentially-
screened passengers may not mix in the terminal, but may mix onboard 
the airplane. As a matter of fact, we understand that mixing on the 
plane has not caused any reported incidents at other airports where it 
been occurring successfully for some time.
    Let me explain the entire DHS-proposed international transit 
passenger processes:

        1. Passengers must process through CBP including passport 
        verification, immigration document processing submitting I-94 
        forms, and U.S. Visit fingerprinting and photograph.

        2. Passengers then exit through Customs submitting Customs 
        Declaration Forms.

        3. Passengers must then be re-screened through TSA screening.

        4. Finally, passengers return to the gate area, where they must 
        soon thereafter perform exit procedures through U.S. Visit, 
        submitting fingerprint and photo information once again.

    All of these processes must be done within the 90-minute ground 
time. The airline staff spends the entire ground time getting 
passengers through the DHS processes and back on airplane just to be 
able to board a few passengers originating in Anchorage.
    Currently we have 18 international passenger flight arrivals each 
week. These flights have operated safely and securely for nearly 20 
years. We truly believe these modifications are unnecessary because the 
basis for the demands have no material security rationale. But if DHS 
insists on imposing these segregation and/or re-screening requirements 
that cannot, at the end of the day, reasonably be justified as 
furthering U.S. security interests, then the Federal Government should 
bear the burden of paying the cost of infrastructure and additional 
screeners.
    Our main goal continues to be that all passengers be allowed off 
the airplane into the sterile, secure transit facility with minimal 
processing, yet exposed to U.S. security officials. We firmly believe 
the additional processing that DHS is requiring here in Anchorage will 
soon push carriers to overfly Alaska and the U.S. altogether, to the 
detriment of both the Alaska economy and U.S. security.
AIP Funding Levels and Formula
    Although TWOV and transit passenger processing are our most urgent 
issues, Federal funding issues loom large on the horizon. Alaska could 
face a major funding challenge were AIP funding allowed to fall below 
$3.2 billion. A level of funding below this amount would greatly reduce 
Anchorage's critical cargo entitlements. Anchorage relies more heavily 
on cargo entitlements than any other airport in the nation. Because ANC 
serves as a critical transit and transfer point for a large proportion 
of international air cargo to and from the United States, funding for 
our cargo support infrastructure is truly a concern for our national 
economy, and not merely local interests. We recommend that cargo 
entitlements be increased 0.5 percent from 3.5 percent to 4 percent to 
better balance the increased cargo infrastructure needs compared with 
passenger infrastructure needs. In past years, an effort was made to 
reduce or cap cargo's share of the funding formula. With growth in 
heavy air cargo continuing to outpace passenger growth, a modest 
increase in cargo's share is more appropriate.
Flexibility for AIP Spending
    In additional to AIP formula issues, restrictions on use of these 
funds has also become an issue. Current FAA regulations are very 
restrictive on the ability of airports to use their entitlement 
funding. With greater flexibility, airports could use this funding more 
efficiently.
    For example, it would make sense for us to use AIP funds to 
purchase a larger runway snow blower to be used on the larger runways 
and taxiways we are building to accommodate the new larger aircraft. 
This new snow blower, which clears twice the width of any current 
equipment, would make our winter operations more efficient, economical 
and increase safety. The only manufacturer with a proven reliability is 
a foreign entity. Special condition 9 of the AIP grant agreement 
precludes us from purchasing this and other essential pieces of 
equipment using AIP funds.
PFC Flexibility, Penalty and Ceiling
    Although airports enjoy somewhat greater flexibility on use of 
Passenger Facility Charges, there again FAA restrictions include 
unnecessary and administratively burdensome limits on PFC use. In 
addition, current FAA regulations reduce AIP funding to medium and 
large hub airports when they raise Passenger Facility Charges to any 
level above $3.00. This provision effectively penalizes an airport that 
collects a higher PFC--depending on passenger volumes, the loss of AIP 
can exceed any additional PFC revenues. When the FAA asserts that a 
large reservoir of PFC dollars remains untapped by airports that do not 
adopt higher PFC rates, that assessment ignores this penalty. PFCs are 
not Federal funds; those collections should not be subject to any more 
than minimal restrictions and should not offset Federal dollars. ANC is 
a perfect example of an airport that could grow this capital funding 
source for much-needed projects were the AIP offset rule abolished. To 
strengthen the PFC program for the benefit of airports nationwide, we 
do support a higher maximum PFC, but we also need to abolish or reduce 
the penalty for adopting a higher PFC if the program is to live up its 
potential.
TSA
    Turning now from general infrastructure funding, I want to address 
the special challenge of security funding. As you know the airport 
operating environment has changed dramatically since the 9/11 attacks. 
The Transportation Security Administration (TSA) continues to place new 
requirements on airports without providing airports any funding to 
carry out the new requirements. In fact, Senator, we are still waiting 
for an LOI promised by former TSA Administrator Loy in 2003.
    While we have worked very closely with TSA leadership, Anchorage 
was promised that new security requirements would be reimbursed by TSA. 
To date, these commitments have not been fulfilled. To date, ANC has 
spent $19.6 million to fund TSA-mandated security enhancements in 
Concourse C and is projected to spend another $15.0 million in 
Concourses A & B. The failure of the Federal Government to fund these 
security mandates has compelled ANC to use revenues that would 
otherwise be available for important infrastructure development needs. 
This burden has now been placed on our air carriers, many in dire 
financial crises. I am hopeful Ted Stevens Anchorage International 
Airport will participate in the proposed funds in the 2007 DHS Spending 
Bill.
Air Cargo Security
    A security issue of particular importance for Anchorage 
International is the Department of Homeland Security's recently issued 
final rules for Air Cargo Security. The approach resulted from 
collaboration with all parties and correctly emphasizes a threat-based 
system in air cargo. ANC had already created its own Working Group on 
Air Cargo Security at ANC with the industry and interested agencies to 
get a sense of what is realistic and what is overkill, especially for 
all-cargo air freighters. Our Working Group participated in the 
national policy process. There are those, on the other hand, who 
propose such extreme proposals as 100 percent cargo screening and 
inspection. The effect on our economy, we believe, must be weighed 
against the threat of attack on air cargo aircraft. In fact, devoting 
DHS resources to 100 percent inspection for cargo would either require 
a tremendous additional commitment of Federal funds or it would 
actually reduce security by pulling inspectors from the tragically 
proven threat to passenger aircraft. We applaud Congress' awareness 
that an overzealous bureaucratic solution may not be a good solution at 
all.
Conclusion
    In conclusion, Ted Stevens Anchorage International Airport competes 
in a worldwide market of Olympic proportions. Our nation's good 
economic scores in today's global business environment reflect ANC's 
contribution in delivering value for lowest cost. Air cargo is claiming 
a growing proportion of international trade with the world. The Federal 
rules by which gateway airports must play and rules that burden AIP 
funds and PFCs have an important effect on our ability to provide 
services at the lowest possible cost to keep pace with other market 
forces. We believe our proposals for infrastructure and procedural 
enhancements while ensuring aviation safety and security are essential.
    Finally, I would be remiss if I did not note my great appreciation 
for the incredible support of our outgoing Secretary of Transportation 
Norm Mineta, his personal support to me and his professional support of 
the Ted Stevens Anchorage International Airport. Under his leadership 
and that of Administrator Blakey, former Associate Administrator of 
Airports, Woodie Woodward, Acting Associate Administrator Kate Lang and 
Alaska Deputy Manager for Airports Division, Deb Roth, the Ted Stevens 
Anchorage International Airport has become the Olympic-capable world-
class airport it is today.
    Thank you, Senator Stevens and Administrator Blakey, for your 
continuing leadership in providing resources and adopting new cargo 
legislation to help this great airport serve the nation's interests. I 
would also like to thank Senator Inouye for his continued support for 
Alaska and our International Airport System. We look forward to working 
with you to implement the reforms we have suggested today to continue 
our strong record of contribution to a secure and efficient national 
air transportation system. That concludes my remarks, Mr. Chairman.

    The Chairman. Our last witness is Tom George, the Alaska 
Regional Representative for AOPA.

           STATEMENT OF TOM GEORGE, ALASKA REGIONAL 
          REPRESENTATIVE, AIRCRAFT OWNERS AND PILOTS 
                          ASSOCIATION

    Mr. George. Good morning. And thank you for the invitation 
to participate in the panel this morning. My name is Tom George 
and I serve as the Aircraft Owners and Pilots Association's 
Regional Representative for Alaska on behalf of over 4,200 
members in the state. I'd briefly like to touch on several 
issues that concern us today.
    Funding for the FAA. For the past year, debate over how to 
fund the Federal Aviation Administration and its associated 
programs has been underway. The airlines and the FAA are 
advocating to replace aviation taxes with the user fee system, 
including taking the air traffic control system out from under 
the management and oversight and budgetary control of the 
Congress. For many of us in Alaska are questioning why 
Washington would totally change the effective mechanism that 
currently funds the safest, most efficient aviation system in 
the world. Without Congress acting as FAA's Board of Directors, 
Alaska's needs would likely be shortchanged.
    The FAA claims the Aviation Trust Fund is insufficient and 
provides funding in a manner that is unpredictable. But the 
fact of the matter is, with ticket prices and the number of 
passengers increasing, more money is going into the Trust Fund 
than ever. Alaska is so reliant on aviation and it plays such 
an important role in the economic backbone of the state, isn't 
it appropriate for 25 percent of the FAA's costs to be funded 
by the general taxpayers? Everyone in the state benefits from 
aviation system, whether or not they actually fly. Deliveries 
of goods and services, medical care and supplies, mail delivery 
and other everyday needs are all dependent on a viable air 
transportation system.
    Turning to airport funding. Alaska relies heavily on FAA 
funding through the Airport Improvement Program to develop our 
airports. As you've heard already this morning from I think 
every other panel member, the Administration's request for the 
program falls short of meeting Alaska's needs. The President's 
Fiscal Year 2007 budget proposes to fund AIP at $2.7 billion, 
nearly a billion dollars less than its authorized level. Due to 
the specific provisions of the authorizing statute for the AIP 
Program, the proposed level of funding would result in Alaska 
losing over $23 million this next year. Rural airports most 
impacted by these formulas are also least able to draw from 
other resources to absorb these cuts.
    Fortunately, the House of Representatives rejected this 
proposal and voted to fund AIP at its authorized level of $3.7 
billion last month. The stakes are high for Alaska's pilots, 
and this is one of AOPA's top priorities in 2006. We urge you 
to fund the Airport Improvement Program at $3.7 billion.
    The Capstone Program. You've already heard this morning 
about the safety benefits of the Capstone Program. Together 
both ADS-B and the WAAS elements of the Program are bringing 
Alaska up to par with the Nation in terms of aviation 
infrastructure while at the same time generating data to help 
develop the future of our nation's air traffic control system.
    I'd like to add that both programs appear to be much lower 
cost to install and maintain than some of the current 
technology. We strongly encourage the FAA to move forward and 
aggressively deploy the ground infrastructure necessary to 
provide statewide coverage of ADS-B and WAAS routes and 
approaches. For this program to continue its record of success 
in improving safety, the FAA should also support industry 
efforts in Alaska to develop a financial assistance program to 
help aircraft owners voluntarily install the equipment needed 
to realize the full benefits of this program. Without 
affordable avionics, Capstone and its associated nationwide 
implementation will be hampered, or will fail to reach their 
full potential.
    I'd like to briefly touch on two weather related programs 
that are also improving aviation safety in Alaska. The FAA 
Weather Camera Program, which you've already heard about this 
morning, has certainly become an invaluable source of weather 
information to general aviation pilots. Observations recorded 
every 10 minutes are made available to the public over the 
Internet. As a frequent user of the Camera Program, I can tell 
you that being able to look at weather conditions firsthand 
really helps make an informed decision. And it also helps 
overcome many of the shortcomings of the unattended automated 
weather stations. We need to continue to expand this network 
and to improve the user interface for this beneficial service.
    I'd also like to mention the National Weather Service 
efforts with regard to aviation. They operate an aviation 
weather website that delivers weather products, often in 
graphical form, directly to pilots. When I use this site I can 
also get access to the most current weather satellite and 
NextRad weather radar data. Ironically it's the only 
operational way that pilots can graphically view the pilot 
reports that have been collected by the FAA. AOPA encourages 
the National Weather Service to continue the development of 
their Alaska aviation weather website.
    I'd like to turn to Unmanned Aerial Vehicles. One area that 
needs much more attention from the FAA is the issue of Unmanned 
Aerial Vehicles or UAVs. Potential applications here in Alaska 
include military training, fisheries monitoring, pipeline 
patrol and forest fire mapping. Rugged terrain and severe 
weather conditions make the challenge of mixing UAVs with 
manned aircraft worse in Alaska. It's crucial to understand 
that aircraft are often funneled into narrow mountain passes or 
compressed under cloud layers, meaning that UAVs and manned 
aircraft will share limited airspace in close proximity to each 
other. While exciting technologically, it is important that 
UAVs don't become a hazard to existing airspace users.
    AOPA believes that temporary flight restrictions for UAV 
operations are not appropriate and that the FAA needs to fully 
explore the alternatives available to allow Federal agencies to 
meet their operational needs without impacting general 
aviation. Alaska's dependence on aviation as a form of basic 
transportation magnifies the inconvenience of airspace 
restrictions into a fundamental question of access.
    Military use of UAV, is also a concern. We have been told 
that the Army plans to use unmanned aircraft as part of their 
training for ground troops near Fort Greely. Where other 
military UAVs primarily use existing restricted airspace, the 
Army has stated that it will not ask for restricted airspace 
for this facility. It is essential that general aviation not be 
excluded from additional airspace in this area.
    When I talk with other pilots they express concern about 
running into these other aircraft or being blocked by TFRs. The 
FAA must develop standards to certify UAVs to the same level of 
safety as piloted aircraft. Failure to do so could further 
isolate Alaskan residents from the basic necessities needed to 
survive.
    Military airspace. The military shares vast amounts of 
airspace with civilian users in Alaska in the form of Military 
Operation Areas. These MOAs are used for military training 
activities both on a routine basis and for major flying 
exercises. The civil community has cooperated with the military 
in Alaska to develop these areas, respectful of both civil and 
military needs. A major factor contributing to the success is a 
service supported by the military called the Special Use 
Airspace Information Service. This service allows civil users 
to determine the current and near term status of the MOAs in 
restricted areas, greatly improving the situational awareness 
and therefore aviation safety for all users of the airspace. 
This system may need to be expanded to meet the growing needs 
of the Air Force and the Army as they ramp up their training 
activities in Alaska.
    Mr. Chairman, thank you for the opportunity to bring 
several of these important issues that affect AOPA members to 
your attention. Under your leadership, field hearings in Alaska 
have become an annual event that serves to highlight our 
state's unique environment to your colleagues. We appreciate 
this opportunity and your support for aviation. Thank you.
    [The prepared statement of Mr. George follows:]

   Prepared Statement of Tom George, Alaska Regional Representative, 
                 Aircraft Owners and Pilots Association
    Good morning. Thank you for the invitation to be here today to 
discuss aviation issues in Alaska. My name is Tom George, and I serve 
as the Aircraft Owners and Pilots Association's (AOPA) Regional 
Representative for Alaska. AOPA represents more than 408,000 pilots and 
aircraft owners--more than two-thirds of all active pilots in the 
United States, including over 4,200 members in Alaska.
    Alaska, more than any other state, relies on general aviation as a 
major component of its transportation system. That is why some of the 
aviation funding proposals being debated back in Washington, D.C. would 
have a profound negative impact on Alaska's residents. I'd like to 
share AOPA's concerns in regards to this issue, highlight the 
initiatives that are improving aviation safety in the state, and 
outline the areas needing more attention.
Protect the National Aviation System--Preserving the World's Safest, 
        Most Efficient Aviation System
    For the past year, debate over how to fund the Federal Aviation 
Administration (FAA) and its associated programs has been underway. The 
airlines and the FAA are advocating to replace aviation taxes with a 
user fee system, including taking the air traffic control system out 
from under the management oversight and budgetary control of the 
Congress. But many of us in Alaska are questioning why Washington would 
totally change the effective mechanism that currently funds the safest, 
most efficient aviation system in the world. Without Congress acting as 
the FAA's Board of Directors, Alaska's needs will likely be 
shortchanged.
    The FAA claims the Aviation Trust Fund is insufficient and provides 
funding in a manner that is unpredictable. But the fact of the matter 
is, with ticket prices and the number of passengers increasing, more 
money is going into the Trust Fund than ever. Alaska is so reliant on 
aviation and it plays such an important role in the economic backbone 
of the state, isn't it appropriate that 25 percent of the FAA's costs 
be funded by the general taxpayers? Everyone in the state benefits from 
the aviation system, whether or not they actually fly. Everyday 
deliveries of goods and services, medical services and supplies, mail 
delivery and other everyday needs are all dependent on a viable air 
transportation system.
Airport Funding--Essential to Alaska's Transportation System
    Congress has been particularly mindful of Alaska's reliance on 
aviation transportation through its strong support of the Airport 
Improvement Program (AIP). AIP grants provide much needed funding for 
airport development projects such as airfield capital improvements and 
repairs, navigational aids, airfield lighting, land acquisition, and 
planning studies.
    But as this Committee is well aware, the Administration's request 
for this vital program has many AOPA members, especially those of us in 
Alaska, alarmed. The President's FY07 budget proposes to fund AIP at 
$2.7 billion--nearly a billion dollars less than its authorized level.
    And the story gets worse. The current authorizing statute for AIP 
contains several special rules that are triggered only when AIP is 
funded at $3.2 billion or higher. One of those special rules creates a 
direct entitlement program for general aviation airports. While the 
$150,000 annual nonprimary airport grant may not sound like much money 
in Washington, D.C., it adds up for Alaska's aviation system. This 
year, under the nonprimary entitlement program, 159 Alaskan airports 
are entitled to $22,938,653. Another rule triggered by this funding 
level doubles the amount of special funding Alaska receives, known as 
the ``Supplemental Apportionment for Alaska.'' This year, Alaska will 
receive $21,345,114 through this supplemental apportionment.
    If AIP is funded below $3.2 billion, Alaska will lose over $23 
million in AIP funding--making it one of the top five states most 
severely impacted by this cut. Aviation is too important to Alaska to 
jeopardize our economy by allowing these cuts to be enacted.
    Fortunately, the House of Representatives rejected this short-
sighted proposal, and voted to fund AIP at its authorized level of $3.7 
billion last month. The stakes are high for Alaska's pilots, and this 
is one of AOPA's top priorities for 2006--we urge you to fund the 
Airport Improvement Program at $3.7 billion.
Improving Safety--Leading the Way for Aviation Technology With Capstone 
        Program
    Another top priority is fully realizing the safety benefits from 
the Capstone Program. Documented studies show a 47 percent reduction in 
accidents for general aviation aircraft using this new technology here 
in Alaska. The FAA partnered with the aviation community in Southwest 
Alaska to operationally demonstrate Automatic Direct Broadcast-
Surveillance or ADS-B. General aviation pilots in Alaska have proven 
its viability, and it is one of the building blocks of the FAA's Next 
Generation Air Transportation System. This new data link technology 
provides a greater situational awareness to pilots and air traffic 
control, increasing safety in the sky and for the general public on the 
ground.
    A second phase of the program, still in deployment, is enhancing 
the Global Positioning Satellite System (GPS) with the Wide Area 
Augmentation System (WAAS) in Southeast Alaska. This will provide 
customized air traffic routes and approaches to better navigate the 
fjord-like terrain of the region. Since it does not need ground based 
navigation stations, these routes are easily adapted to the sea-level 
channels, and provide much lower minimum enroute altitudes. This is 
especially important for general aviation aircraft that are unable to 
handle icing at higher elevations.
    To put it simply, the Capstone Program is bringing Alaska up to par 
with the Nation in terms of aviation infrastructure, and generating 
data to help develop the future of our nation's air traffic control 
system. These technologies have clearly shown the potential to increase 
aviation safety and access to rural Alaskan communities, many of which 
are still limited to daytime only visual operations (VFR). We strongly 
encourage the FAA to move forward aggressively to deploy the ground 
infrastructure necessary to provide statewide coverage for ADS-B and 
WAAS routes and approaches. For this program to continue its record of 
success in improving safety, the FAA should also support industry 
efforts in Alaska to develop a financial assistance program to help 
aircraft owners voluntarily install the equipment needed to realize the 
full benefits of this program. Without affordable avionics, Capstone 
and its associated nationwide implementation will be hampered, or fail 
to reach its full potential.
Weather Reporting Programs--Another Important Tool for Improving 
        Safety
    Very quickly, I'd like to mention two weather-reporting programs 
that are also enhancing aviation safety in Alaska. The FAA Weather 
Camera Program is rapidly becoming a valuable source of weather 
information to general and commercial aviation pilots. Observations are 
recorded every ten minutes, uploaded onto the Internet, and made 
available to the public. This allows pilots to look at weather 
conditions firsthand before making operational decisions, overcoming 
many of the shortcomings of the unattended automated weather stations.
    The National Weather Service's Alaska aviation weather website is 
filling a vital role in delivering weather products, often in graphic 
form, directly to pilots. The same site provides access to the most 
current weather satellite and NextRad weather data. Ironically, it is 
the only way that pilots can graphically view the pilot reports 
collected by the FAA. These observations, made by the pilots as they 
fly, bridge the huge gaps in data between ground reporting stations. 
AOPA also encourages the National Weather Service to continue the 
development of their Alaska aviation weather website.
Unmanned Aerial Vehicles (UAVs) Must Be Implemented Carefully and 
        Without Negative Impacts on General Aviation
    One area needing much more attention from the FAA is the issue of 
Unmanned Aerial Vehicles (UAVs). Potential UAV applications in Alaska 
include military training, fisheries monitoring, pipeline patrol, and 
forest fire mapping. Rugged terrain and severe weather conditions make 
the challenge of mixing UAVs with manned aircraft worse in Alaska. It's 
crucial to understand that aircraft are often funneled into narrow 
mountain passes or compressed under cloud layers, meaning that UAVs and 
manned aircraft will share limited airspace in close proximity to each 
other. While exciting technologically, it is important that UAVs don't 
become a hazard to the existing airspace users.
    AOPA believes that ``temporary'' flight restrictions (TFRs) for UAV 
operations are not appropriate and the FAA needs to fully explore the 
alternatives available to allow Federal agencies to meet their 
operational needs without impacting general aviation. Alaska's 
dependence on aviation as a form of basic transportation magnifies the 
inconvenience of airspace restrictions into a fundamental question of 
access.
    Military use of UAVs is also a concern, and the Army plans to use 
unmanned aircraft as part of their training for ground troops near Ft. 
Greely. Where other military UAVs primarily use existing restricted 
airspace, the Army has stated that it will not ask for restricted 
airspace for this facility. It is essential that general aviation not 
be excluded from additional airspace in this area.
    AOPA recently surveyed its members on the issue of UAV operations. 
The overwhelming majority rejected the notion of flight restrictions, 
preferring that the FAA certify unmanned aircraft for operations in the 
Nation's airspace. The FAA must develop standards to certify UAVs to 
the same level of safety as piloted aircraft. Failure to do so could 
further isolate Alaska residents from the basic necessities needed to 
survive. In addition, pilots have safety concerns that must be 
addressed by the FAA before UAV operations should be considered. Some 
of these are technical and some are regulatory including:

  <bullet> The inability of UAVs to see and avoid manned aircraft;

  <bullet> The inability of UAVs to immediately respond to ATC 
        instructions;

  <bullet> The absence of testing and demonstrations that UAVs can 
        operate safely in the same airspace as manned aircraft; and

  <bullet> The need to certify UAVs to the same level of safety as 
        manned aircraft.

Military Airspace--Expansion Requires the DOD to Share More 
        Information With Pilots
    The military shares vast amounts of airspace with civil aviation 
users in Alaska in the form of Military Operations Areas (MOAs). These 
MOA's are used for military training activities, both on a routine 
basis and for major flying exercises. The civil community has 
cooperated with the military in Alaska to develop these areas, 
respectful of both civil and military needs. A major factor 
contributing to this success is a service supported by the military 
called the Special Use Airspace Information Service (SUAIS). This 
service, formally defined in a 1997 Record of Decision that established 
the airspace complex, allows civil users to determine the current and 
near-term status of the MOAs and restricted areas, greatly improving 
the situational awareness and therefore aviation safety for all users 
of the airspace. This system may need to be expanded to meet the 
growing needs of the Air Force and the Army as they ramp up their 
training activities in Alaska.
Congress Should Prevent Premature Decommissioning of LORAN
    General aviation pilots heavily rely on the Global Positioning 
System (GPS) for electronic navigation. In the case of unexpected GPS 
outages, pilots generally rely on ground based navigation aids such as 
Very High Frequency Omni Range (VOR). This is a suitable solution for 
now. However, VOR is generally believed to be an unsuitable backup for 
advanced GPS positioning and timing applications, such as ADS-B. Except 
for VOR, virtually all backup options are difficult for general 
aviation pilots to utilize, due to excessive cost or technological 
immaturity.
    Some believe that the Long Range Navigation (LORAN) system is a 
viable GPS backup for aviation users. Unfortunately, the Department of 
Homeland Security's (DHS) U.S. Coast Guard has proposed to decommission 
LORAN as early as this September. Given the apparent need for an 
affordable, robust GPS backup that has similar performance, and 
supports the positioning and timing needs of aviation, the 
decommissioning of LORAN by the DHS is premature. Once gone, LORAN will 
no longer be a backup option, and any other suitable alternative would 
likely be more costly, take longer to implement, and would be the 
financial responsibility of the FAA exclusively. Congress should 
prevent LORAN decommissioning until the FAA can conclusively validate 
LORAN performance, and verify LORAN is a suitable backup to GPS. The 
FAA should also provide Congress with an assessment of the viability of 
affordable LORAN receivers that can be certified for general aviation. 
AOPA firmly believes that consultation with aviation users should be 
conducted before decommissioning LORAN.
    Mr. Chairman, thank you for the opportunity to bring several of 
these important issues that affect AOPA members to your attention. 
Under your leadership, field hearings in Alaska have become an annual 
event that serves to highlight our state's unique environment to your 
colleagues. As you well know, those of us that call Alaska home share a 
passion--one that is not easily understood by those in the lower 48--
for this place, so we truly appreciate your desire to represent us in 
the fervent manner that reflects who we are.

    The Chairman. Thank you very much. I do appreciate all of 
you for being with us today. Now, John, you mentioned the 
monies were already appropriated in the past. Are any of those 
amounts available for 2007? Are they carrying over any money?
    Mr. Torgerson. I believe we are, Senator. I don't know the 
amount but some of our funding lapses over fiscal years. If 
that's what you're referring to.
    The Chairman. I don't remember whether we made those 2 year 
or no-year appropriations. We made money available in the past 
for the state's priorities. You indicated that you had some 
carryover moneys as I understand it. I wondered have you 
checked to see if those are possible to carry over to Fiscal 
Year 2007?
    Mr. Torgerson. For the rural airport lighting system this 
is the last year of that appropriation for that total of $38 
million so that'll be--that's currently being allocated and 
used now.
    The Chairman. I know it's been made available to you but 
have you used it?
    Mr. Torgerson. No, sir, we're currently in the construction 
and bidding process for a lot of that money now.
    The Chairman. Can you tell me how much you have available 
for 2007?
    Mr. Torgerson. I'm looking back at my Program Manager. I 
don't know that number, Senator, but I'll----
    The Chairman. It's going to be a very touchy amount this 
year because of the increased demand for those moneys and we 
have a little bit of argument with the Administration over how 
much those TSA fees should be. So I would like to know how much 
is available. It might reduce the amount that we'd have to ask 
for for 2007 which would be a lot of help.
    Mr. Torgerson. I will get that number to you, Senator.
    The Chairman. Good. Bob, it seems to me what you were 
saying, we need funding, funding, funding in so many programs 
we've started now. What is your feeling about the situation 
that we face in terms of the kind of technological improvements 
needed? This new weather program, how essential will that be to 
your operations?
    Mr. Hajdukovich. We rely on the weather camera system 
itself in our dispatch department for 135 and 121 operations. 
Many times an element of the AWOS system will be out of service 
and we can look at the camera system to give us a real live 
view of what's happening out there. So we heavily support the 
weather camera system. I can't really speak to the kiosk 
setting because we're so dynamic in the company, you know, 
dispatching real time we don't--we would probably not make it 
to a kiosk from the company standpoint. But from the private 
pilot standpoint, I would think that would have value placed in 
key locations in the state.
    The Chairman. You use other systems than this for your 
operation on a commercial basis?
    Mr. Hajdukovich. We use the flight tracking system that 
marries the ADS-B targets into the Air Traffic Control System 
and with the radar environment to track our aircraft in the 
system. We also use the Iridium phone to have pilots be able to 
communicate back to dispatch. You know, one of the things that 
I think that I focused on over the last several years is--it's 
the decision to launch, it's not so much that decision en 
route. Once you've already committed to en route you've already 
gone airborne, you have a level of commitment to get to your 
destination. And so I think the more that we can communicate, 
for example a float plane pilot setting down on a lake and 
being able to contact whoever's going to be looking for him on 
the other end or his--or the wife or the husband that's going 
to be trying to track you. So the two-way communication, I 
think, is going to be critical to safety in Alaska and that 
comes through Iridium, and the decision to launch by giving the 
information through systems like the weather camera system.
    The Chairman. John Torgerson mentioned some of the problems 
with the lighting program. Has this lighting program enhanced 
your operations? I noticed it's all VFR clearance. You go in 
with IFR, don't you?
    Mr. Hajdukovich. Yes.
    The Chairman. Has this lighting program helped your 
situation at all with regard to commercial aviation into those 
fields?
    Mr. Hajdukovich. Absolutely. There's--we go into some of 
the larger communities or larger runways so we didn't see a lot 
of the lighting problems. But we--for example, Stevens Village, 
we grew up serving that community and it was very difficult 
landing, flare pots and getting people to line their 
snowmobiles up and that--those days are gone. What's replaced 
getting me up in the middle of the night at 3 in the morning to 
catch an emergency medevac is we have a more developed medevac 
system in the state. Those systems rely on risk assessment 
programs and want to be a part of all these programs. And so 
what's critical is we have, you know, real air ambulance 
programs that are out there saying, OK, well, we want to do it 
by the numbers and so we need the airport lighting. So they 
have been very critical.
    The Chairman. You heard the comments of Tom George about 
UAVs. Do you have any serious question about the use of UAVs? 
You operate primarily out of Fairbanks, don't you?
    Mr. Hajdukovich. Yes. And I think in the Big Delta area we 
don't have any flight routes over that area but we can get 
vectored quite often around MOAs and sometimes I guestion why 
the military can't get the vectors themselves. We're the ones 
paying for the gas real time. And so that's a bit of a 
frustration but the Unmanned Military Vehicles or the UAVs, in 
Big Delta I could see a problem because that's a big path that 
private aircraft take. There's very little commercial activity 
out that direction but a tremendous amount of private activity.
    The Chairman. Well, there's a substantial projection of 
increased use of UAVs by Federal agencies here, the Coast Guard 
as well as the Army. Have you had any meetings with them? Have 
there been any sessions with general and commercial aviation on 
the use of those new Unmanned Vehicles?
    Mr. Hajdukovich. You know, as I understand it, the military 
committee kind of reinvents itself every year and I know 
they're going through that again in the Fairbanks area and I'm 
not as involved with that as my father-in-law, Richard Wien, 
has been so I think he would have an opinion on that. But I 
know that's going to be a major issue and I would agree with 
Tom that it's very significant to the private side as well as 
commercial depending on where they go.
    The Chairman. Well, I wear another hat in terms of defense 
appropriations and I can tell you there is a substantial 
increase coming in the use of UAVs by the military in Alaska. 
And I think we should reconvene those coordinating committees. 
They worked it out very well in terms of the problems of the 
sonic booms. I think we could find a way to coordinate that. 
And I look forward to working with you on that. Mort, I too am 
frustrated that we did not get the decision out of the 
Department of Homeland Security that was committed to us and 
when I go back we will take up the comments you've made. I am 
also disturbed about your report concerning the failure to give 
us the certification for the international passengers that are 
just coming off. They must offload because of another 
regulation, because the planes are being refueled, right?
    Mr. Plumb. As I mentioned, we have--of the 18 international 
passenger flights, from only 4 are passengers allowed off. The 
rest of those must require passengers to stay on the aircraft 
while it is on the ground, mainly Cathay. So while you could 
hypothesize there's a threat when these aircraft land or 
takeoff, for 20 years there has not been a threat. And these 
airplanes still land and take off. It's just these people 
simply cannot get off the aircraft. And we lose a very good 
intelligence source as it stands now. We have the advance 
passenger manifest so we know who is on the airplane. If we let 
these people off and we check their documents, get their 
thumbprint and take their picture and put them back on, we're 
way ahead of the game. Many times CBP pulls people off this 
airplane and deports them back. Absent the ability to get these 
people to stop here, these people will simply find other means 
and will overfly us and go to Canada or possibly Mexico and be 
60 miles from our border. So I think it's a win, win situation. 
It's a win for our economy. It's a win for our security if we 
can work through these issues and let these people off.
    The main problem is when passengers from China travel from 
Hong Kong to Toronto and they buy a ticket, they don't have the 
expectation of stopping in the United States because China is a 
visa country. So if they cannot get these people to buy tickets 
on that airplane, Cathay is simply going to pull 14 flights out 
and overfly us to Toronto which is what Continental does right 
now. So, clearly the logic escapes me.
    You could possibly hypothesize a scenario where someone 
could possibly get through, but I think the reality of that is 
very remote. We've had these operations for 20 years on ITIs 
and travel--International and travel without visa waiver and 
we've never had anyone that has gotten out of the secure area. 
So, again, I think that this is something that there's been 
some foot dragging on. I think there's some stretched 
interpretation of things. We all know how horrific it was after 
9/11 and the people that I have spoken to, that doesn't mean 
that there are others that have an opinion--don't have an 
opinion. But the Congressional intent did not perceive the way 
they are implementing the current regulations. And I guess, 
short of DHS making a policy decision, it will have to be fixed 
legislatively.
    The Chairman. Is this basically TSA that you're dealing 
with?
    Mr. Plumb. It is the Department of Homeland Security. And 
it gets a little confusing in that it is basically a CBP, a 
Customs and Border Protection, regulation that they are looking 
at. But if they find their way through that, there's a position 
within the Transportation Security Agency that claims that 
these people would have to be re-screened or screened by U.S. 
officials. The thing that's interesting at Vancouver and 
Toronto, we have an issue called pre-clearance. We have people 
that are screened by Canadian officials and then they walk a 
distance and their papers are checked and that gives them 
entrance into this country. They board an airplane. They go to 
Seattle. From there they go to Los Angeles, Las Vegas, New 
York. They enter our system. But the same Canadian screening at 
Whitehorse does not apply. We have yet to be informed as to why 
someone that is screened in Canada by Canadian officials and 
someone that is screened in Whitehorse by Canadian officials is 
different. Furthermore, the only thing that is different, here 
at Anchorage, they walk a distance down in Vancouver and they 
talk to CBP officials. Here, the first person they see when 
they walk off the airplane is a CBP official. So, again, the 
logic escapes me.
    The Chairman. We'll take a good look at it when we get back 
and I'll get in touch with you. I'll instruct the staff to work 
on that particularly because we did have a commitment on that. 
And I'm sad to hear that it's not been kept. Mr. George, these 
are tough times for us in terms of the FAA budget. And it seems 
that you're the first person I've heard that supports an 
increased TSA fee. Is that what you said?
    Mr. George. An increased TSA--no. A continued general fund 
appropriation to support the FAA, in addition to just the 
continued tax structure that's there today.
    The Chairman. I see. Well, I wish I could do that. The 
budget's a little tight right now to do that. In terms of AOPA, 
are you involved in the UAV question also?
    Mr. George. Yes, and to the best of my knowledge there's 
been one meeting that NOAA and Homeland Security held here in 
Alaska in general to talk about UAVs. I wasn't able to 
personally attend that meeting but thanks to help from the 
Alaska Airman's Association, we did have a general aviation 
representative there. And it sounds like, yes, there are very 
ambitious plans, not just on the part of the military but other 
agencies interested in, you know, pipeline patrol, Fish and 
Game, surveys as well as fisheries monitoring. And again, 
that's where our concerns come up. We've got to find a way to 
do that, that doesn't impact the rest of the aviation 
community.
    The Chairman. What do you think about the comments that Ms. 
Blakey made about these new facilities such as this weather 
kiosk and things like that. Are these going to be acceptable to 
your people, the Kiosk Program that's going to start at Lake 
Hood for instance?
    Mr. George. Well, we're very interested to look at it. And 
actually, I haven't yet had a chance to look at this. I think 
it's just being rolled out. The weather camera program 
definitely is crucial to us. And I think finding other ways to 
get that information out is important. A lot of issues have to 
be addressed like, where in the rural airports kiosks like this 
would be located, knowing that a lot of the airports in Alaska 
actually have no infrastructure on the ground, including even a 
warm place to wait for weather conditions to improve. I think 
taking any step with a couple of these kiosks is a good idea. 
I'm hoping if it's not included today, the weather service 
website can be included with it. And we'll certainly work with 
the FAA to figure out what makes sense in terms of deployment 
to extend the reach to the people on the other end of their 
flight so to speak.
    The Chairman. As I understand it, this is going to be 
placed at Lake Hood soon, right? I'd be very much interested in 
the reaction of general aviation to this because that's really 
basically what it's for. And we're going to have to have some 
user statistics in order to get the funds to expand this 
throughout the state. That will be another substantial expense, 
I think, before we're through. So I would urge you to use your 
facilities at AOPA to get the information out about this new 
system and to see if we can get some user reaction to it. The 
unique part of it is that you have the commercial weather 
channel as well as the FAA side-by-side and, as I understand 
it, you can change your flight plan on what you see right 
there, is that right? You'll be able to contact and change the 
flight plan based upon what you picked up on this machine. So, 
I think we need feedback. I've just been given a note, Mort, 
that our general counsel is working with you on TWOV, and the 
Department of Homeland Security is not being helpful in terms 
of this. We're going to have to find out why. They keep, 
apparently, vetoing the final decision even though the 
Secretary committed to us he would make that decision. So we'll 
take that up when we get back. I don't know if any of the FAA 
people have any questions about this panel. I don't have any 
further questions. I do thank you very much for coming. We'll 
review your statement, Mort, it's a good one and I'll get it 
faxed back to Ken today, so that by the time we get back to 
work next Monday, we'll have some contacts ready to make with 
the Department to see what we can do to get them off the dime 
as far as that's concerned.
    Mr. Plumb. Thank you.
    The Chairman. That international situation reminds me of 
right after 9/11 when all the planes went somewhere else 
because they didn't know what was going to happen if they 
landed here. So we will work on it and we'll help as much as we 
can. Thank you, Bob, for coming.
    Mr. Hajdukovich. Thank you.
    The Chairman. Best to your father-in-law. Thank you, John, 
appreciate it very much.
    Mr. Torgerson. Thank you.
    The Chairman. That will terminate the hearing here. We look 
forward to following up on some of these issues when we have 
further hearings of the Commerce Committee in Washington. Thank 
you very much.
    [Whereupon, at 10:59 a.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
